FEDERAL ELECTION COMMISSION 


OFFICE OF INSPECTOR GENERAL 





        FINAL REPORT 


 AUDIT OF THE COMMISSION’S 

 PUBLIC DISCLOSURE PROCESS 





           December 2005 

      AUDIT ASSIGNMENT 02-03 

                   OFFICE OF INSPECTOR GENERAL 

                                         TABLE OF CONTENTS



DESCRIPTION                                                                                              PAGE

Executive Summary -----------------------------------------------------------------------------          1      


Background      --------------------------------------------------------------------------------------   3      



Objectives, Scope and Methodology -----------------------------------------------------------            6      



Audit Determinations

        Disclosure Differences Between PAC and Candidate Data -----------------------                    8      


        Adequate Process in Place to Remedy Disclosure Discrepancies                    --------------   12 



Conclusions     --------------------------------------------------------------------------------------   14         


Management’s Comments-------------------------------------------------------------------------- 16 


Appendix A: The FEC Disclosure Process --------------------------------------------------                17         


Appendix B: FEC Form 3, Report of Receipts and Disbursements                            --------------   24 


Appendix C: FEC Form 3X, Report of Receipts and Disbursements                           --------------   35 

            (For Other than An Authorized Committee)
                   EXECUTIVE SUMMARY 

In response to a request received from former Congressman Stephen Horn, the
Office of Inspector General conducted an audit of the FEC’s public disclosure
process. The former Congressman had expressed concern about the discrepancies
between the amounts that political action committees (PACs) reported given to
House and Senate candidates and the amounts that the candidates had reported
receiving. Therefore, the primary objectives of the audit were to: 1) determine
the extent, if any, of disclosure differences between candidate contributions
reported by political committees and related political committee contributions
reported received by candidates, and 2) assess whether an adequate process is in
place to remedy any reporting discrepancies.

The audit work was conducted between August 2002 and July of 2005. We
performed a significant amount of background research to obtain an
understanding of the FEC’s disclosure process. We also conducted several
preliminary meetings with management and contacted external organizations for
information related to the audit. In order to achieve our stated objectives, we
reviewed pertinent documentation, conducted interviews with Commission staff,
and performed extensive analyses of campaign finance data to identify anomalies
and other attributes of the data. We also developed process narratives and
flowcharts which document the functions and processes of the FEC offices
primarily responsible for the disclosure process.

Specifically, our audit examined the extent of disclosure differences within the
Commission’s complex disclosure process and the magnitude of campaign
finance data. We found that disclosure differences generally exist between the
amounts of money reported given by a PAC and the contributions the candidate
reported receiving. In fact, we computed a total variance of 1.2 million dollars
between PAC contributions reported disbursed and related PAC contributions
reported received by our judgmental sample of fifty House and Senate candidates.
The total amount of PAC contributions reported given by the donor PACs did not
equal the total amount of PAC contributions reported received by the fifty
sampled candidates. Furthermore, remote users of the Commission’s disclosure
database are not adequately made aware of potential reporting discrepancies that
could occur among reporting entities. The disclosure database accessible from the
FEC Web site does not warn users to be cautious when making conclusions from
the data files in regards to a candidate’s campaign financing activity.

A variety of campaign factors that are inherently part of the FEC’s campaign
finance disclosure process produce disclosure differences between the amounts of
money reported given by a PAC and the contributions the candidate reported
receiving from the PAC. Differences between reporting entities can be attributed
to: timing disparities, returned PAC contributions, duplicate transactions,


                                       1

inaccurate or incomplete reporting, inaccurate coding, the non-reporting of in-
kind contributions, and differences in filing requirements.

Additionally, we found the lapse in time between PAC reported disbursements
and candidate reported receipts of those disbursements can also cause disclosure
differences. In fact, PAC and candidate transactions can cross over one or more
reporting cycles. Furthermore, we found it difficult to accurately match a PAC
disbursement with the exact candidate receipt of that PAC disbursement since the
donor committee’s identification number is not required to be included on the
contribution check and one PAC can be known by several different names,
acronyms, and abbreviations.

Overall, we believe the FEC consistently constructs, for the most part, an accurate
depiction of financial activities based upon the participation of Congress and
other mandated filers. To accommodate the evolving nature of the disclosure
database, we found that the Commission has developed sound policies and
procedures that attempt to prevent, identify, and correct reporting variances.
Thus, the agency continually makes the data available to provide the electorate
with the ability to make educated, informed decisions on the political process
based in part on where candidates for federal office derive their financial support.
However, patrons must understand that, due to the magnitude and complexity of
the mandated disclosure system, the data must be understood before assumptions
are made regarding a candidate’s campaign financing activities. We discovered
that the FEC’s Web site doesn’t encourage patrons to review both sides (donor
and recipients) before making assumptions with the numbers. Nor does the
disclosure database effectively disclose the inherent factors that cause disclosure
differences. Considering this, we made a few suggestions for improvement to the
disclosure process, which are outlined at the end of this report.




                                         2

                            BACKGROUND 

Campaign Finance Legislation and the Federal Election Commission

Between 1907 and 1966, Congress enacted several statutes in response to
Presidential requests for legislation to ban corporate contributions for political
purposes. These statutes sought to limit the influence of wealthy individuals on
federal elections, regulate spending in campaigns for federal office, and prevent
abuse by mandating public disclosure of campaign finances. Congress later
consolidated these early reform efforts into the 1971 Election Laws - The Federal
Election Campaign Act.

The Federal Election Campaign Act of 1971, (FECA), provides the basic
legislative framework governing the financing of federal elections and institutes
more stringent disclosure requirements for federal candidates, political parties,
and political action committees (PACs). However, these initial attempts at federal
election reform were unsuccessful without a central administrative authority to
provide an institutional framework to oversee the campaign finance provisions of
the law.

In 1974, Congress amended the FECA to authorize the establishment of an
independent regulatory agency, the Federal Election Commission (FEC or
Commission), to administer and enforce the FECA. The mission of the FEC is to
assure that the campaign finance process is fully disclosed and that the rules are
effectively and fairly enforced, fostering the electorate's faith in the integrity of
the nation's political process. Under current law, the FEC has exclusive
jurisdiction over the civil enforcement of the FECA.

To achieve its mission, the Commission has three core agency programs: public
disclosure, compliance, and public financing. Specifically, these programs
function together to facilitate public disclosure of campaign finance activity;
encourage voluntary compliance with the disclosure and other requirements of the
FECA; and enforce the statute through audits, investigations, and civil litigation.
Administering and enforcing the FECA also involves implementing the public
funding programs for Presidential campaigns and conventions. This includes
audits of participating candidates and committees, and enforcement of public
funding legislation.

The environment that the FEC operates within is volatile; several external factors
have the ability to adversely affect the Commission’s ability to achieve its
mission. Some of these factors include:

     • the level of funding appropriated to the FEC;
     • significant amendments to the FECA;
     • significant changes in the level of competition in federal election


                                          3

         campaigns;
     •	 significant changes in the degree and intensity of fundraising for 

         federal campaigns; 

     •	 extreme changes in the general political attitude, interest, and

         awareness of the electorate; and 

     • the solvency of the Presidential Election Campaign Fund.

All of these issues can impact the quantity of money to be regulated by the FEC
during each election period as well as the FEC’s workload (i.e. the number of
reports filed and transactions to be processed, the number of requests for
information, data, and support made to the FEC, and the number of complaints
filed with the Commission).

Public disclosure of the sources and amounts of money used to support federal
elections is one of the most important responsibilities of the FEC. Through the
public disclosure program, the Commission strives to promote full and timely
disclosure of campaign finance activity in federal elections, and to provide
information and policy guidance on the FECA to the public, press, and those
persons and entities required to comply with the FECA. The public uses the
financial campaign data to evaluate the candidates running for federal office.
Public disclosure of campaign data also allows both the public and the
Commission to monitor compliance with federal election law.

Requirements for the disclosure of federal campaign funds are set forth in federal
election campaign laws and regulations. These laws require that the Commission
publicize financial campaign data to inform and educate the public. 11 CFR
Section 5.2 specifically states that “the Commission will make the fullest possible
disclosure of records to the public…..” The FECA requires candidate committees,
party committees, and PACs to register and file periodic reports (monthly or
quarterly) with the Commission disclosing the money they raise and spend.
Candidates must identify, for example, all PACs and party committees that give
them contributions, and they must identify individuals who give them more than
$200 in an election cycle. Additionally, they must disclose expenditures
exceeding $200 per election cycle to any individual or vendor. This finance data
is captured on the FEC Form 3 (candidate committees) or 3X (political
committees) Report of Receipts and Disbursements and submitted to the
Commission. Copies of these forms appear in appendix B and C.

The Commission scans all of the paper campaign finance reports filed with the
agency to create digital images of the documents, which are then accessible to the
public in the FEC’s Public Disclosure Office or on the Commission’s Web site.
In addition to the digital imaging system, the Commission codes and enters the
information taken from campaign finance reports into the agency’s disclosure
database. The Commission assigns each registered committee a unique
identification number and then the information is coded so that committees are
identified consistently throughout the database. After the reports have been
processed, coded, and entered, the Commission’s Reports Analysis Division
(RAD) reviews reports to track compliance with the law and to ensure that the


                                          4

public record provides a full and accurate portrayal of campaign finance activity.
The Commission makes the reports it receives easily available to the public,
usually within 48 hours after receipt. The Commission’s mandatory electronic
filing program which began in January 2001 requires committees that receive
contributions or make expenditures in excess of $50,000 in a calendar year, or
expect to do so, to file their campaign finance reports electronically. For
electronic filings, the entire process of capturing campaign summary data is
completely automated. Reports are available for viewing within 24 hours after
receipt. A flowchart, visually illustrating the Commission’s disclosure process for
receiving campaign data to making it available for the public, appears in appendix
A, The FEC Disclosure Process.

In the summer of 2002, the Office of Inspector General received a request from
former Congressman Stephen Horn to review how the Commission is carrying out
its disclosure responsibilities and how the Commission can remedy reporting
discrepancies. His office had expressed concern about discrepancies between the
amounts that PACs reported were given to House and Senate candidates and the
amounts that the candidates reported receiving. The Project on Government
Oversight (POGO) report Establishing Institutional Integrity at the FEC: Ten
Common Sense Campaign Finance Disclosure Reforms, dated March 5, 1998
discussed these discrepancies. On March 28, 2001, POGO, an independent,
nonprofit organization that investigates allegations of waste, fraud, and abuse in
the federal government, released a follow-up report on this issue entitled, At the
Federal Election Commission Things Just Don’t Add Up.




                                        5

 OBJECTIVES, SCOPE, AND METHODOLOGY 

The objectives of this audit were to: 1) determine the extent, if any, of disclosure
differences between candidate contributions reported by political committees and
related political committee contributions reported received by candidates, and 2)
assess whether an adequate process is in place to remedy any reporting
discrepancies. Our scope included campaign finance transactions filed with the
Commission from January 1, 1999, through July 2005.

To obtain background information regarding campaign finance disclosure, we
reviewed the federal laws and regulations relevant to federal election campaigns,
such as 11 CFR, Federal Elections and U.S. Code, Title 2, Chapter 14, Federal
Election Campaigns. We reviewed polices and procedures distributed by the
FEC, campaign guides, pamphlets, and internal operating manuals. We
interviewed Commission employees in the Public Disclosure Division, Data
Coding and Entry Branches, Information Technology Division (formerly Data
System Development Division), and the Reports Analysis Division in order to
develop process narratives. We met with POGO personnel to discuss
methodologies used during their review. We also examined the Commission’s
annual legislative recommendations applicable to campaign finance disclosure
that were submitted to Congress from 1997-2005.

We evaluated the FEC’s Information Technology Strategic Plan for initiatives
relating to the FEC public disclosure of campaign finance data. We examined
closely the results of a reengineering study completed by an FEC contractor, to
obtain background information regarding RAD’s workflow and review process.
In addition, we conducted a telephone interview with a principal of TRKC
Incorporated to obtain information regarding possible causes of disclosure
variances. TRKC Incorporated is an Internet news and tracking service that assists
media organizations, corporations, trade associations, and non-profit groups with
data collection, storing, transmission, linking, analysis, and display of complex
financial and political information. TRKC Incorporated specializes in working
with data on political money moving to and from the national political arena.

We observed the campaign finance report review process with senior campaign
finance analysts and developed several flowcharts to visually depict the
Commission’s entire campaign finance disclosure process in place.

We evaluated and compared campaign data disclosed on the Commission’s Web
site, File Transfer Protocol (FTP) files, and imaging system to determine whether
the data is consistently presented. Also, we evaluated end-user instructions on the
FEC Web site and for the FTP files to determine whether the Commission
provided patrons with adequate guidance on how to manipulate and retrieve the
campaign data available. Also, we determined whether the Web site and FTP site
disclosed the frequency of data updates.


                                         6

To identify possible causes of disclosure differences between the amounts of
money reported given by a PAC and the contributions the candidate reported
receiving from the PAC, we judgmentally selected a sample of ten House and
Senate candidates. For the ten House and Senate candidates sampled, we tracked
and analyzed campaign finance transactions processed through the campaign
disclosure system during the 1999-2000 reporting cycle.

We expanded our sample to fifty additional House and Senate candidates to
further examine the extent of disclosure differences between candidate
contributions reported by political committees and related political committee
contributions reported received by candidates. For each candidate sampled, we
retrieved and reviewed campaign finance reports to analyze the total amount of
PAC receipts reported during two different filing cycles or reporting periods(from
2001 to 2004). Then, we computed the dollar value difference between the PAC
and candidate committee data.

To determine whether political committee and candidate transactions tend to cross
over reporting periods or election cycles, we judgmentally selected 407 PAC
disbursements and candidate receipt transactions filed for a randomly selected
incumbent. For this dataset, we computed the average number of days between
the reported disbursement and receipt of each financial transaction.

Additionally, we judgmentally selected a sample of candidates with in-kind
transactions to identify examples of non-reporting of in-kind contributions.
To explore the impact of different filing requirements as they relate to returned
checks, we also judgmentally selected and traced through the campaign reporting
system, a sample of twelve returned checks recorded by various PACs and
returned by the candidates.

This audit was performed in accordance with generally accepted government
auditing standards during the period of August 2002 through July 2005.




                                        7

                 AUDIT DETERMINATIONS 

Disclosure Differences Between PAC and Candidate Data
The OIG audit found disclosure differences generally occur between the
contributions reported given by a PAC and the PAC contributions the candidate
reported receiving. As required by the FECA, the Commission successfully
discloses financial campaign data; however, discrepancies between reporting
entities are inherently part of the nature and design of the FEC’s campaign
disclosure process. As a result, the amount of PAC funds reported given to
finance elections may not be in agreement with a candidate’s actual campaign
financing activities.

Requirements for the disclosure of federal campaign funds are set forth in federal
election campaign laws and regulations. These laws require that the Commission
publicize financial campaign data to educate the public. 11 CFR Section 5.2
specifically states that “the Commission will make the fullest possible disclosure
of records to the public…..” In a filing cycle, nearly 8,000 registered committees
file with the Commission. From these registered committees, the Commission
receives between 85,000 to 90,000 reports, which contain millions of itemized
contributions, as well as millions of itemized disbursements, receipts and other
various payments. As acknowledged by campaign law, the Commission is
charged with a task which is both great in magnitude and complexity.

Within this complex disclosure process and a magnitude of campaign finance
data, disclosure differences generally exist between the amounts of money
reported given by a PAC and the contributions the candidate reported receiving.
For example, we judgmentally selected a sample of fifty House and Senate
candidates and found that none of the candidates sampled had contributions
reported given by PACs that equaled the total contribution amount the candidate
reported receiving from the PACs. In fact, we computed a total variance of 1.2
million dollars between PAC contributions reported disbursed and related PAC
contributions reported received by the fifty candidates sampled. The 1.2 million
dollar variance represents about four percent of the total campaign activity for this
sample of House and Senate candidates. For each candidate sampled, we
retrieved and reviewed campaign finance reports to analyze the total amount of
PAC receipts reported during two different filing cycles or reporting periods(from
2001 to 2004) by each candidate with PAC reported disbursements. Then, we
computed the dollar value difference between the PAC and candidate committee
data. The dollar value disclosure differences among the individual transactions
for the candidates sampled ranged from $250.00 to $189,600.00. Although
reporting variances generally occur, users who access the disclosure database
using the FEC Web site are not made aware of potential discrepancies.




                                         8

The disclosure differences between the amounts of money reported given by a
PAC and the contributions the candidate reported receiving can be attributed to a
number of factors inherently part of the Commission’s disclosure system.

Timing Disparities

One of these inherent aspects, timing disparities, we discovered while tracking
campaign finance transactions filed for one randomly selected incumbent through
the Commission’s disclosure process. During the 1999-2000 filing cycle, we
determined that one candidate sampled had a disclosure difference of $15,027.00
between the contributions reported given by PACs and the contributions his
campaign reported receiving. We traced 407 PAC disbursement transactions to
the candidate’s reported receipt of those contributions and found a lapse in time
between PAC reported disbursements and candidate receipts of those
disbursements that varied from one day to eight months. In fact, 49% of the
disbursements reviewed took more than fifteen days before the candidate actually
reported receipt of the PAC contribution. Of that 49%, eleven contributions took
between three to eight months before the candidate’s campaign reported receipt of
the contribution. Furthermore, we found that a PAC disbursement of a
contribution may occur in one reporting period while receipt of that contribution
could occur in another reporting period or election cycle. House and Senate
candidates are required to disclose financial transactions quarterly; however,
PACs are required to file at least semiannually in non-election years and at least
quarterly in election years. PACs may elect to file monthly for either or both non
election and election years. National party committees are required to file
monthly for both non-election and election years. State, local and district party
committees have the same filing frequency requirements as PAC’s with the
exception; Party committees that engage in reportable “federal election activity”
must file monthly. Based on these filing requirements, PAC contributions
disbursed to House and Senate candidates may be reported monthly to the
Commission, but the candidate committees may not report receipt of those PAC
contributions until at least two or three months later. Therefore, different filing
requirements as well as contributions in transit can contribute to discrepancies
between reporting entities.

Duplicate Transactions and In-Kind Contributions

During the assessment of timing disparities between campaign finance
transactions, we noted two more causes of reporting variances: duplicate
transactions and the non-reporting of in-kind contributions. Specifically, we
found that one candidate’s committee had reported receipts of 584 PAC
contributions; but the contributing PACs apparently disbursed only 505
contributions to the candidate’s campaign. After closely examining the data, we
found that almost 100 of the PAC receipts actually reported by the candidate were
duplicate transactions. According to FEC management, some duplicates are
reporting errors and others are transactions actually reported twice by the


                                        9

reporting entity. In fact, we found that RAD has incorporated procedures that
attempt to address duplicated transactions as well as duplicate reports discovered
during the report review process.

In addition to duplicates, we found in-kind contributions reported by the
contributing PAC, but not reported by a candidate’s campaign committee. An in-
kind contribution is a donation of goods, services, or property offered free or at a
less than usual and normal charge. Commission policy encourages contributing
PACs to inform candidate committees of in-kind contributions made on their
behalf to avoid disclosure differences and overstatements. However, we found
twenty-six in-kind contributions, valued at over $10,940.00, reported by
contributing PACs, but only fifteen in-kind contributions valued at $7,549.00
were actually reported by the candidate’s campaign committee.

Returned PAC Contributions

Returned checks or un-cashed PAC contributions can cause discrepancies
between the amounts that PACs report disbursing and the amount the candidate
actually received. We found that candidates may return PAC contributions back
to the donor committee without depositing the check. As required, the donor
PAC would have reported the initial contribution to the Commission as a
disbursement on Schedule B of the FEC Form 3X Report of Receipts and
Disbursements. However, the Commission’s disclosure regulations do not require
the recipient committee to report either the receipt or the return of the contribution
if the original contribution is returned without being deposited. Thus, disclosure
differences occur between the contributions reported given by the donor PAC and
the contributions the candidate reported receiving until the donor PAC reports a
negative disbursement in the amount of the original contribution on the Schedule
B, Itemized Disbursements, for the next required FEC Form 3X.

Furthermore, the Commission’s disclosure regulations do not require the PACs to
report returned checks if it occurs within the same reporting period of the initial
contribution. Nor do the regulations require the donor PAC to report an un
cashed or returned check within a specified time. In fact, we found several un
cashed or returned PAC contributions not recorded in the same reporting period or
election cycle of the initial contribution and some were never reported as un
cashed or returned. If PACs do not report a negative disbursement to offset the
initial contribution, the candidate will continue to have a disclosure difference.
Considering this, the FEC should inform users of the disclosure database that in
order to obtain the total amount of PAC money contributed and used by a
candidate, the user must review reports from both reporting entities (i.e. the
candidate’s reports as well as the contributing PACs’ reports) before making any
assumptions on the numbers.




                                         10

Coding Errors

During the audit, we also discovered several PAC contributions inaccurately
coded and assigned to the wrong candidate by the Commission as well as
reporting errors made by the PAC or candidate while preparing the FEC Form 3
or 3X Report of Receipts and Disbursements. Part of the FEC’s disclosure
process requires the Commission to correctly match which committee the donor
PAC intends to give the contribution to. However, the coding process can be
complicated because a committee can be known by several different names,
acronyms, and abbreviations used to represent the same committee. Additionally,
some candidates have multiple committees; House and Senate, House and
Presidential or Senate and Presidential. We found it extremely difficult to track
PACs’ disbursement transactions to the candidate receipt of the contribution. No
common attribute, such as the committee identification number or donor’s check
number, was used between transactions to allow patrons or the Commission to
accurately track disbursements to receipts.

Agency regulations do not require that the committee identification number be
included on the contribution check or FEC Form 3X Schedule B for Itemized
Disbursements. Therefore, the Commission must attempt to accurately determine
which committee the contributing PAC intends to give the contribution to without
the committee’s full name and identification number. This means reporting errors
and inaccurate coding of PAC contributions provide yet another potential
opportunity for disclosure differences between PAC disbursements and candidate
receipts. To encourage standardization, the Commission makes available free
filing software that contains drop down menus listing committee names which,
when selected by the filing entity, causes the name and identification number to
be included in the electronic filing to the FEC.




                                       11

Adequate Process in Place To Remedy Disclosure Discrepancies
Overall, the Commission has an adequate process in place to improve reporting
discrepancies. As required by campaign finance law, the Commission has
developed a disclosure system that administers the provisions of the FECA and
includes effective policies and procedures to address potential reporting
inconsistencies. As a result, the Commission continually produces the most
accurate portrayal possible of Congressional candidates’ campaign financing
activities.

Title 2 of the United States Code, section 438, outlines the FEC’s administrative
duties which include: prescribing of rules, regulations, and forms to carry out the
provisions of the campaign finance laws as well as developing a filing, coding,
and cross-indexing system consistent with the purposes of FECA. The coding
process for paper reports sent through the mail involves reviewing key data fields
for accuracy (such as the filing period), circling the line items that will be entered
by the data entry staff, and assigning the appropriate codes (such as report
coverage dates, report type). Paper reports are indexed after the manual coding
and data entry process is completed. With electronically filed reports, summary
campaign data is indexed automatically without staff intervention. The indexing
of campaign data allows the user to locate reported campaign data on the FEC
Web site by page number. Section 438 also states that the Commission must
prepare, publish, and furnish to all persons required to file reports and statements
under the FECA a manual recommending uniform methods of bookkeeping and
reporting. Any recommendations for legislative action that the Commission
considers appropriate must be transmitted to the President and to each House of
Congress annually for approval.

As previously stated, disclosure differences are inherently part of the
Commission’s campaign finance disclosure system. However, the Commission
has an adequate process in place that executes the provisions of FECA. In fact,
the Commission’s disclosure process incorporates policy and procedures that
attempt to prevent, identify, and correct reporting variances.

Automated Review System and Procedures

In coordination with the Information Technology Division (ITD), RAD developed
and began testing an automated review or Electronic Review (E-Review) program
in 2005. The program will automate much of the review process and replace most
of the manual verification processes. RAD has envisioned that this program will
produce a report that will identify any reporting discrepancies between PAC
disbursements and candidate receipts of PAC contributions. Overall, the new E-
Review program will also make the review process more efficient and faster while
at the same time identifying potential discrepancies between the contributions
reported given by a PAC and the PAC contributions the candidate reported
receiving.


                                          12

Policy and Outreach

The FEC’s public disclosure policies and educational outreach programs work
together to educate the electorate about various aspects of federal campaign
finance law and to prevent disclosure differences in campaign finance data. The
Commission continually provides extensive information and policy guidance on
the FECA to the public, press, and those persons or entities required to comply
with the FECA. Mandated filers as well as general users have access to campaign
finance regulations and rules via the Internet or in person within the Public
Disclosure Division. This material is also made available by phone or email
request as well as from the Information Division, RAD, the Press Office, and
Congressional Affairs. The Commission’s outreach program produces additional
informational and educational publications such as campaign guides, brochures,
and detailed pamphlets. Commission personnel conduct five to six campaign
finance workshops a year to instruct filers, and monthly roundtables are held on a
wide range of FECA issues. Commission personnel also manage a toll-free help
line that is actively used by the public as well as the filers of campaign finance
data. The Commission responds to over 200,000 requests for data, information,
copies of reports or indices, and other requests for assistance each filing cycle (not
including visits or hits on the FEC Web site).

Request for Additional Information

RAD reviews campaign finance reports to monitor compliance with the law and
to ensure that the public record provides a full and accurate portrayal of campaign
finance activity. During the report review process, a Campaign Finance Analyst
compares financial data reported to internal polices and notes any discrepancies
found throughout the review. These discrepancies are scrutinized by the analysts
to determine whether additional information or corrections are needed. When an
analyst finds that a report contains errors or suggests violations of the law, they
send the reporting committee a Request for Additional Information (RFAI),
allowing respondents thirty days to reply. After receipt of the letter, the
committee treasurer can make additions or corrections to the report, which is then
added to the public record. In fact, the Commission issues about 20,000 RFAI’s
per election cycle to correct the disclosure database. To prevent repetitious errors
which burden the disclosure process, the Commission usually sends out RFAIs
within three months of receipt of the report. RAD refers apparent violations to
the Audit Division, the Office of General Counsel, and the Alternative Dispute
Resolution office for possible enforcement action.

The FEC’s Web Site

The Commission recently completed significant upgrades to the Web site as part
of an ongoing endeavor to make campaign finance information more accessible to
the regulated community, researchers, and the public. We found features such as
the improved navigation and interactive pages user friendly as it allows users to


                                         13

tailor content to their specific needs. The new Web site search engine also allows
the user to access those files that are word searchable. Remote users can view
more than three million images of report pages dating back to 1993 and over two
million database entries since 1997. Visitors to the Office of Public Disclosure at
the FEC can also access the FEC’s Web site using public computer terminals,
which offer search and retrieval of digital report images and access to the
disclosure database.

Downloadable Campaign Finance Data from the Web Site

Users of the Commission’s Web site also have access to downloadable data files
contained on the agency’s file transfer protocol (FTP) site. The FTP site is a data
repository which is useful for those users who want to conduct intensive analysis
of campaign finance data. The downloadable data files found on the FTP site are
very large and contain contributor, candidate, committee, and summary data.
Unlike the disclosure database which is updated nightly, some of the
downloadable data files are updated on a weekly basis. We also found that the
agency’s FTP site adequately warns users to be cautious when making
conclusions from these data files in regards to a candidate’s campaign financing
activities, whereas the disclosure database accessible from the FEC Web site does
not.




                           CONCLUSIONS 

We have found that the FEC consistently constructs, for the most part, an accurate
depiction of financial activities based upon the participation of Congress and
other mandated filers. However, due to a variety of factors that are inherently part
of the campaign finance disclosure process, disclosure differences generally exist
between the amounts of money reported given by a PAC and the contributions the
candidate reported receiving. During the audit, we found that differences between
reporting entities can be attributed to: timing disparities, returned PAC
contributions, duplicate transactions, inaccurate or incomplete reporting,
inaccurate coding, the non-reporting of in-kind contributions, and differences in
filing requirements. To accommodate the evolving nature of the disclosure
database, the Commission has developed sound policies and procedures that
attempt to prevent, identify, and correct reporting variances. In addition, the
Commission’s newly redesigned disclosure database offers simplified navigation,
additional search tools, and use of new technology that provides users with an
interactive experience that is tailored to their specific needs. However, the
disclosure database accessible from the FEC Web site does not inform the user
that reporting variances frequently occur between candidate contributions
reported by political committees and related political committee contributions
reported received by candidates. Nor does the Commission’s disclosure database



                                        14

encourage patrons to cautiously review both sides (donor and recipient) before
making assumptions based on the numbers.




                           SUGGESTIONS 

Overall, we believe adequate policies and procedures are in place to remedy
reporting discrepancies. To improve the current system of campaign disclosure,
we suggest the following:


   •	 The Commission should ensure the users and mandated filers of the FEC
      disclosure system are aware that reporting variances frequently occur
      between candidate contributions reported by political action committees
      (PACs) and related political committee contributions reported received by
      candidates.

   •	 The Commission should also disclose the inherent campaign finance
      factors that could cause disclosure differences between PAC and candidate
      data.

   •	 The Commission should explain to users that in order to obtain the total
      account of money contributed and used by a candidate, the public must
      review both sides (the candidate and the political committee’s reports)
      before making any assumptions on the numbers.

   •	 The Commission consider recommending to Congress that the donor
      committee’s identification number be included on the contribution check
      or FEC Form 3/3X schedule B for Itemized Disbursements to help the
      Commission accurately determine which committee the contributing
      PACs intend to give the contributions to. The Commission may also want
      to consider recommending that the same committee identification number
      be included on the recipient committee’s report.




                                       15

             MANAGEMENT’S COMMENTS 


Management was given a draft copy of this report and provided the following
comments: “We are pleased by the IG’s recognition that the Commission has
developed sound policies and procedures that attempt to prevent, identify, and
correct reporting variances. We concur with the IG’s finding that the FEC
consistently constructs an accurate depiction of financial activities based upon
the participation of Congress and other mandated filers. That said, I recognize
there are areas that can be improved, and I look forward to working with you to
implement those recommendations that will improve the current system of
campaign finance disclosure.” Management also provided additional comments
regarding the clarification of issues included in our draft report. Those comments
have been incorporated, where appropriate, into our report.




                                        16

                                                                                                                                                                                Appendix A
                                                                                                                                                       Senate
                                                                                                                                                       reports
                                                                                                                                                      posted to
                                                                                                                                                      FEC Web
                                                                                                                                                         site
                                                                                                   Overnight
                                                                                                   electronic
               campaign
                                                                                                 transmission
                finance     Secretary of
       Reports are           scanned Senate

Senate Filer                                                                                      of scanned         TIFF files that contain
               disclosure     Senate
            scanned                  reports
                                                                  FEC computer
                                                                                                     Senate      electronic images of Senate
                  report                                                                                                                                server
                                                                                                   reports to      campaign finance reports
                                                                                                      FEC                                          ( ITD temporary
                                                                                                                                                      cache file )
                                            TIFF image sent to archive writer
                                               and creates the microfilm
                                                                                                                                                electronic Senate reports



                                                                                                                                                       Processing

                                                                                                                                                         Branch

                                                      Original reel
                                                      of microfilm
                                                      delivered to
                                                          FEC
                                                                                                                                                  printed overnight on
                                                                                                                                                     the Processing
                                                                                                                                                    Branch's printer




                                                   Processing Branch                      Processing Branch
                                                                                                                                                               Quality review of
                                                                                                                                                            TIFF files transmitted
                                                                                                                                                              and printed. Staff
                                                Microfilm sent to lab for                                                                                       logs in all files
                                                        overnight                                                                                                 received.
                                                      processing


                                                      8 reels of                        2 copies of Senate                                                    Staff locates files
                                                   Senate mic rofilm                        microfilm                                                          not successfully
The FEC Disclosure Process:
                                                     prepared for                                                                                                 received.
                                                    public/staff use                                                                                         (transmission error
Scanning and the electronic                                                                                                                                   or printing error?)
transmission of Senate reports
                                                                            3 copies of                                             A                           As needed, a
Secretary of Senate                                                           Senate                                             (page 5)                      retransmission
Information Technology Division                                              microfilm                                                                        may be requested
Processing Branch                                                                                                                                                 from the
                                                     3 copies of                                                                                                Secretary of
                                                   Senate mic rofilm                                                                                               Senate
(Secretary of Senate filers)                                                              Distributed to other
                                                                                             FEC offices                     Data Coding and

                                                                                                                                                                paper copy of
                                                                                                                              Entry Branch

                                                                                                                                                                  all reports
                                                    Public Records

Page 1                                                                                                                                                         Public Records
                                                                                              17

                                                                                                                                          Appendix A


                                    Mailroom
                                                 disks                                                               Campaign
                                                                                              FEC database is          data is
                                                                                               populated with       automatically
electronic reports                                                                            PASS I summary          indexed
     on disks                                                                                      data




                                                                                    Uploads                           Disclosure
    FEC Filer                                                                        data                               report
  (Presidential,      electronic                                                                                      posted to
  PAC, House,                       Electronic                                                                        FEC Web
                       reports                   ITD
    Party and                         form                   electronic campaign                                         site
                     via Internet
    Nonparty)                                                        data
                                                         hardcopy of electronic
                                                               reports



                                                                                                                Does the report n
                                                                                                                                i clude
                                                                                     RAD                          detailed itemized           no
                                                                                                                    transactions?



                                                                                                                                              end
                                                                                                                         yes

                                                                                                                     Coding staff
                                                                                                                       conducts
                                                                                               PASS III data
                                                                                                                       electronic
                                                                                                 manually
                                                                  FEC database                                         coding of
                                                                                                cleared by
                                                                  populated with                                       PASS III
                                                                                                 assigned
                                                               itemized campaign                                          data
                                                                                                   coder
                                                                      data                                             itemized
                                                                                                                     transactions


The FEC Disclosure Process:

Downloading PASS I summary data
and PASS III coding of electronic                               Reports Status

campaign finance disclosure reports                            System is updated


Information Technology
Division(ITD)


(FEC electronic filers-
via disk or Internet)

Page 2
                                                                    18

                                                                                                                                                         Appendix A
                                                                                  Documents               Staff log in
                        Faxed                                                        placed                receipt of            Documents
                      or emailed                                                      in the
                                                        Processing Branch                                      all                screened
                       reports                                                      inbox for               reports              and sorted
                                                                                   document               delivered to
                                                                                  preparation             Processing




                                                            Reports
                paper reports                               opened,                                                        Clerk conducts BCRA
                                                                                          Secretary of
         NO       analysis; reports required to
                                                              time
                                                                                            Senate
                         be scanned by FEC?
                                                            stamped
                                                             and the
    FEC Filer                                               envelope
                                                           is clipped
                                                            to report


                    paper reports                                                                                                    YES




                                                                                                                            Documents prepared
                                                                                                                            for scanning: staples
                            Mailed reports                                                                                 removed and a blue or
                                             Mailroom                                                                          yellow envelope
                                                                                                                              replacement page
                                                                                                                           completed to designate
                                                                                                                               the filing date of
                                                                                                                                    reports




The FEC Disclosure Process:

Preparing campaign finance                                                                                                        Quality
disclosure reports for scanning                                                                                                  review of
                                                                                                                                 document
                                                                                                                                preparation
Public Disclosure Division
Processing Office


FEC filers (paper reports via
mail, email or fax)
                                                                                                                                     B
                                                                                                                                  (page 4)
Page 3

                                                                            19

     B                                                                                                                                                                              Appendix A



 Processing
  clerk logs
     onto
 system, set
     scan
   function
                                                                    Quality                                                          Clerk notes
                                                                  check for                             Original                      number of
                                                                  imprinted        processing        paper reports                   documents                                    Data Coding
Clerk records                                                                                                                                              original report         and Entry
 date, clerk                                                        image       of original report   reassembled                         and
                                                                   numbers                            and stapled                     number of                                     Branch
 name and
   starting                                                                                                                          pages in log
    image
number in log
     book                         paper reports


     Paper
    reports                                    Clerk copies                                                              Film
  scanned                                     images to CD                                                            developed
      and                                        (after the      messenger picks                                                    messenger delivers            Processing
                                                                    up CD to                          overnight          and
  stamped                                    accumulation of                           Developer                                   microfilm back to FEC            Branch
                                                                    deliver to                       processing        several
    with 11                                    5000 images                                                            copies are         (next day)
 digit image                                 which equal one           lab
                                                                                                                        made
   location                                  reel of microfilm
   number                                       (approx) )

                        processing of

             .TIFF files that contain electronic

           images of campaign finance reports




                                                                                                                                                               Quality check of
                                                                                                                                                                     film

                                                                                                                                                               Film is placed in
                                                                                                                                                              reels and labeled
The FEC Disclosure
Process:
                                                                       Disclosure reports
                                                                         posted to FEC                                                                             8 copies
Scanning of campaign                                                                                          Public Records
                                                                           Web Site
finance disclosure reports                                                                                                         3 copies of each reel
filed with the FEC                                                                                                                                              Film delivered
                                                                                                                                                                   to various
Public Disclosure Division                                                                                                                                       FEC offices
                                                                                                                                   2 copies of each reel
Processing Branch                                                                                                 Processing
                                                                                                                    Branch                                         3 copies
(FEC filers only)
                                                                                                                                                                 of each reel

Page 4
                                                                                                                                                                  other FEC
                                                                                                                                                                    offices
                                                                                            20

                                                                                      Apppendix A




                                                                    paper copies of
                                               A                    Senate reports




                                 Assigned
             Paper reports      staff log in
                                                                PASS I Coding

              (FEC filed)        receipt of
                                                                    and

                                 FEC filed
                                                                   Entry

                                reports and
                                sort reports




                                                                  Assigned
                                                                     staff
                                                                   perform
                                                                   PASS I
                                                                 coding of all
                                                                  campaign
                                                                   finance
                                                                   reports




The FEC Disclosure
Process:                                         Clerk
                                               conducts
                                                PASS I
Pass I data coding and data                      data
entry of campaign finance                        entry
reports

Information Technology
Division(ITD)
Data Coding and Entry
Branch
                                                  C
(Paper reports - Senate filed                  (page 6)
and FEC filed)

Page 5



                                                          21

         C                                                                                                                       Appendix A
                                                                                                             Program
                                                                                          Program
                                                                                                             prompts
                                                                                          identifies
                                                                                                             clerk to
                                                                                        inconsistent
                                                                                                             choose
                                                                                          entries by
                                                                                                              correct
   Paper report                                                                         line number
                                                                                                               entry
  (Senate filed)


                                                                                             yes



                             Assigned                     Data
                                           Data entry
                           staff perform                  entry
                                             clerk                                       Computer             Clerk
                              PASS I                    clerk re-
 Data Coding and
                          conducts                                    compares data         selects
                           coding of all                  keys                                                                         D
  Entry Branch
                             PASS I                                    ( Data entry error     correct
                            campaign                     data to
                                           Data entry                                      found?)            entry
                              finance                     verify
                              reports                   accuracy




  Paper report
   (FEC filed)
                                                                                             no




                                                                                           PASS I
                                                                                          summary
                                                                                             data
                                                                    FEC Database         transmitted




The FEC Disclosure Process:
                                                                                                                  Reports sorted,
PASS I data verification of campaign                                               Does the report n
                                                                                                   i clude
                                                                                                                 then distributed to
                                                                                     detailed itemized
finance reports                                                                                                   assigned PASS
                                                                                       transactions?
                                                                                                                      III staff

Data Coding and Entry Branch


(Paper FEC and Senate filers)
                                                                                            RAD
Page 6




                                                             22
                                                                                                                                                  Appendix A

    D




                   Clerk verif ies
                    correct ID#                                                                              Clerk
                                     Clerk circles
                      for each                           Contractor                                     conducts data
PASS III                               and codes
                    transaction                         performs data                 no                  entry and
Coding                               line items to
                   and reviews                             entry ?                                      verification of
                                       be keyed
                      key data                                                                          PASS III data
                        fields


                                                             yes


                                                           Reports
                                                        batched to be
                                                         delivered to
                                                          contractor
                                                          messenger
                                                     picks up and delivers                            update system data
                                                        batched reports




                                                          Data entry
                                                          contractor




                                                                                                                            Report   campaign
                                                          Contractor                                                        Status    finance
                                                                             update system data             FEC                                      RAD
                                                           performs                                                        System    disclosure
                                                                                                         CAMPAIGN
                                                           PASS III                                                        updated     report
                                                                                                        DISCLOSURE
                                                          data entry
                                                                                                         DATABASE


 The FEC Disclosure:

 PASS III coding, verification                            messenger
 and entry                                           picks up and delivers
                                                        batched reports
 Information Technology
 Division(ITD)                                                                             *Staff routinely perform
 Data Coding and Entry                                   Data Coding                    detailed procedures to verify
 Branch                                                   and Entry                    accuracy and completeness of
                                                           Branch*                     all PASS III reports sent to the
 (Paper reports FEC and                                                                     data entry contractor.
 Senate filers)
 PAGE 7

                                                                                    23

                                                                                                                                                                                                                                       Appendix B
I
                                                          REPORT OF RECEIPTS
      FEC
    FORII'" 3*	1
                                                          AND   DISBURSEMENTS
                                                            For An ~ u t h u b b dCommittee
                                                                                                                                                                                             I       mpa%?y
                                                                                                                                                                                                       ~"(*,""""""
                                                                                                                                                                                                                                   Office Uae Only

1.	 NAME OF
    COMMITEE (in full)
                                                                TYPE OR PRINT              v                                   Example: ~ftyping, hip.
                                                                                                                               over the lines.
                                                                                                                                                                                             f-I 2 FE4M5
                                                                                                                                                                                             &A
                                                                                                                                                                                              rarr?i~~bx4,        w% - w s x ~ ~ ,
                                                                                                                                                                                                                                            7
                                                                                                                                                                                                                                            ,
                                                                                                                                                                                                                                            .a       -4




                                                                       l   i   l   l   l     l       l   l       l         l     l        l          l   l       l       l   l       l   l       1    ,     :             I        t    I        l    l    l    l   I   !   i
ADDRESS (number and street)
    v 
                                                          I 	                                                                                                                                                                                                            I
                                                                       I   l   l   l   l     l       l   i       l         l     i        l          l   l       l       i   l       l   l       I    I     I     I       I        I    I    !        l    l    l   l   l   l   l
                     Check if different
                     than previously
                     reported. (ACC)                                   1   1   1   1   l         ~           l         l             i           l           ~           ~       l           ~   I
                                                                                                                                                                                                 i l !L . L l J A J - m

                                                                                                                                                                                                            A 

2. 	 FEC IDENTIFICATION NUMBER I                                                                         cm A                                                                                    STATE                                           ZIP CODE A
     """" 	                                   c<
                                                                                                                                                                                                                                                     STAE       r DISTRICT
                                                                                                                                                                                                 fl
                         Yw""~as~l$.g.m                d"&"4C   m* ism


     fCi                                                          " i!                      3. IS M I S 	                                                                                                   MENDED
                                                                                               REPORT                                                                                                       (A)
                                                                                                                                                                                                                                                                        I
                                             x4-**'4   an=&,aR**mr 	

                                                                                                                                                                                                                                                     !-LJ
      >   ev'	            r       h*&.c--r




4. 	 TYPE OF REPORT (Choose One)
                                                                                           @)        12-Day PRE-Election Report for the:
     (a) 	 Quarterly Reports:
               t 4            	
                                                                                                                     P7 	
                                                                                                                                         Primary (12P)                                   f7  -a"          General (12G)
                                                                                                                                                                                                                                                     **
                                                                                                                                                                                                                                                     f i       Runoff (12R)
                                  April 15 Quarterly Report (QI)                                                     em*                                                                 p"r
                                                                                                                                         Convention (12C)                                                 Special (12s)
          .
          -
              4 sb.
                         .,       July 15 Quarterly Report (Q2)
          7      +   ­
                                                                                                                                          
 -2                       I                   I 	                                                         in the
                                  October 15 Quarterly Report ((23)                                                                                              1                                                            I:
          A~     +                                                                                   Election on                              gmd                                                hsiv       ---       =                              State of
          1"$ 

          Lw 8                    January 31 Year-End Report (YE)                          (c) 30-Day POST-Election Report for the: 

                                                                                                                     Y""'

                                                                                                                     i               General (30G)                                                        Runoff (30R)                                         Special (30s)
          )      'I
          ,          y            Termination Report (TER)                                                                                    R
                                                                                                                                              I"
                                                                                                                                               "*
                                                                                                                                                ,.
                                                                                                                                                 :
                                                                                                                                                                                                                                                     in the
                                                                                                     Election on                              I_:,..
                                                                                                                                                I
                                                                                                                                                    M - M !          I
                                                                                                                                                                                                                                                     State of



                                                                                                                                                                                                     <?Mrm<:sb;
                                                                                                                                                                             $ M ' M i l j D                    D l 1
                                                                                                                                                                                                                  $
5. 	 Covering Period 	                                                                                                                         through                       ,                       e,,.,., ,,,,.,l

Icedi@that Ihave examined this Report and to the best of my knowledge and belief i t is true, correct and complete.
Type or Print Name of Treasurer



Signature of Treasurer 	                                                                                                                                                                     Date


NOTE: Submission of false, erroneous, or incomplete Information may subject the person signing this Report to the penalties of 2 U.S.C. S437g.
                         Office

L
FE5AN018
                          Use 	
                         Only 	
                                                                                                                                                                                                                                       FEC FORM 3
                                                                                                                                                                                                                                       (Revised 0212003)                    A
                                                                                                                    Appendix B
r 	         FEC Fonn 3 (Revlsed 0212003)
                                                                              SUMMARY PAGE
                                                                       of Receipts and Disbursements                        Page 2
                                                                                                                                      1

  Write or Type Committee Name



                                                                          I
  Report Covering the Pen'od:                   From:




6. 	 Net Contributions (other than loans)
                                                                                    COLUMN A
                                                                                    Thls Period          I         COLUMN B
                                                                                                             Election Cycle-to-Date


     (a) 	 Total Contributions 

           (other than loans) (from Line Il(e)) .... 


     @) 	 Total Contribution Refunds 

          (from Line 2qd)) .................................. 


     (c) 	 Net Contributions (other than loans) 

           (subtract Line 6@)from Line 6(a)) ...... 


7. 	 Net Operating Expenditures

     (a) 	 Total Operating.Expenditures
           (from Line 17) ...................................... 


    @) 	 Total Offsets to Operating 

         Expenditures (from Line 14)................ 


    (c) 	 Net Operating Expenditures 

          (subtract Line 7@) from Line 7(a))               ...... 

8. 	 Cash on Hand at Close of
     Reporting Period (from Line 27) .................
    --                                                       -



9. 	 Debts and Obligations Owed TO
     the Committee (Itemize all on
     Schedule C andfor Schedule D) ................

10. Debts and Obligations Owed BY
    the Committee (Itemize all on
    Schedule C and/or Schedule D) ................




                                                                      For further information contact:

                                                                        Federal Election Commission 

                                                                             999 E Street, NW 

                                                                          Washington, DC 20463 


                                                                          Toll Free 800-424-9530 

                                                                           Local 202-694-1100 

                                                                                                                                                                                          Appendix B
r 	          FEC Fonn 3 (Aevlsed 12/2003)
                                                                                  DETAILED SUMMARY PAGE
                                                                                                              of Receipts                                                                                   Page 3         

                                                                                                                                                                                                                               1

  Wrke or 'lrype Committee Name 




                                                                    <.-"$9	
                                                                              M   *
                                                                                      llX*R6
                                                                                      M    ;I      T " D "vTv'"
                                                                                                         ~
            I                        ?-,
  Report Covering the Period:                      From:            iGd4     	
                                                                      4 	 L,,&J                                             k

                                                                                                                            s%w     q%%%w   a   ' 1   To:



                                                                                                                COLUMN A 	                                                        COLUMN B
                       I. RECEIPTS 	                                                                          Total Thls Period                                             Electlon Cycle-to-Date

11. CONTRlBUTlONS (other than loans) FROM:

      (a) 	 Individuals/Persons Other Than 

            Political Committees 

            (1)	 Itemized (use Schedule A) ........... 


            01)	 Unitemized.................................... 

            (lii) TOTAL of contributions 

                  from individuals ....................... b                      

      @) 	 Political Party Committees................. 

      (c) 	 Other Political Committees
            (such as PACs)        ................................... 

      (d) 	 The Candidate .................................... 

      (e) 	 TOTAL CONTRIBUTIONS 

            (other than loans) 

            (add tines ll(a)(lii), (b), (c), and (d)).. 


12. TFWNSFERS FROM OTHER 	                                                            "        .
                                                                                      5 % ~*"y : s



    AUTHORIZED COMMITEES ....................                                         4sm .,*v'&#z&<s~?~ \&    \<,*,       , >+$&

13. LOANS:
    (a)	 Made or Guaranteed by the
         Candidate............................................ 


      @) 	 All Other Loans................................... 

      (c) 	 TOTAL LOANS 

            (add tines 13(a) and (b)).................... 


14. OFFSETS TO OPERATING
    EXPENDITURES
    (Refunds, Rebates, etc.) ............................

15. OTHER RECEIPTS 	                                                                                                                                        p-
                                                                                                                                                            I
                                                                                                                                                                 re.   .........%
                                                                                                                                                                                ~~w~,T:w=e,w-tm.,v,.m.w.wx,~
                                                                                                                                                                                                           w. s...,,..em       >ir,.-.y



    (Dividends, Interwit, etc.) ........................... 	                                                                                               I - .........      ,a   Jhwm&ma&    .........d .A
                                                                                                                                                                                                    *t! %?.,.     ...."          .
                                                                                                                                                                                                                           ~ 4%bk

                                                                                                                                                                                                                               ~ ~

16. 	 TOTAL RECEIPTS (add Lines
      ll(e), 12, 13(c), 14, and 15)                 b
      (Carry Total to Line 24, page 4) ............
                                                                                                                                                    Appendix B
                                                                   DETAILED SUMMARY PAGE 	
                                                                                     of Disbursements
                                                                                                                                                                                              7          

             FEC Form 3 (Revised W2003)

            11. DISBURSEMENTS 	                                                              COLUMN A
                                                                                           Total This Period 	                      I               COLUMN B
                                                                                                                                              Election CrcIcto-Dab



17. OPERATING EXPENDITURES..................... 


18. TRANSFERS TO OTHER
    AUTHORIZED COMMIllEES .....................

19. 	 LOAN REPAYMENTS:
      (a) 	 Of Loans Made or Guaranteed
            by the Candidate.................................

      (b) 	 Of All Other Loans .............................. 

      (c) 	 TOTAL LOAN REPAYMENTS
            (add Lines 19(a) and (b)).....................

20. 	 REFUNDS OF CONTRlBUTlONS TO:
      (a) 	 Indlviduals/Persons Other
            Than Political Committees ..................

      (b) 	 Political Party Committees .................. 

      (c) 	 Other Political Committees
            (such as PACs) ....................................

      (d) 	 TOTAL CONTRlBUTlON REFUNDS
            (add Unes 20(a), @), and (c))..............


21. 	 OTHER DISBURSEMENTS ......................... 


                                                                                                                                              -9                                              y
                                                                                                                                         rL
                                                                                                                                                                               p   m   s v,
22. 	 TOTAL DISBURSEMENTS                                                                                                                                9%   ->-.a.                              I--,




                                                                      L                                     mp * q~& m ~ y-
                                                                                                                          ~w
                                                                                                                                                                           +




                                                                      --w%   -   r    n    ~   R   s   n   uY
                                                                                                                               8
      (add tines 171 189 l 9 ( ~ )2* ~ ) and
                                          . 21)               t                      -
                                                                                     4 -                   ewdLkz,,a,                          ,     ~                 ~   - 8 - A~wra              ~    ­



                                               Ill. CASH SUMMARY

23. CASH ON HAND AT BEGINNING OF REPORTING PERIOD............................................... 



24 TOTAL RECEIPTS THIS PERIOD (from tine 16, page 3) ..................................................... 



25. 	 SUBTOTAL (add Line 23 and Line 24) .................................................................................. 



26. 	 TOTAL DISBURSEMENTS M I S PERIOD (from Line 22) .................................................... 


27. 	 CASH ON HAND AT CLOSE OF REPORTING PERIOD
      (subtract Line 26 from Line 25) .............................................................................................. 

                                                             Appendix B

SCHEDULE A (FEC Form 3)




                                    Urnits Increased Due to Opponent's
                                    Spending (2 U.S.C. $#la0/441a-1)




                               Amount of Each Receipt this Period
                               rm7....-,..­
                                       8      '
                                                    ,\x;x--I.IY*UII+-PU-
                                                         I
                                                                                yn%y%y'"'h""-   \
                                                                                                 9




                               lm,a&,&#mss;       .*,.?,I,   4      f?%-:,9  A#,. ,****,",-&
                                                                         .,~Bv                  :

                               j""] Limits increased Due to Opponent's
                               B,,,fispending (2 U.S.C. wla0/44la-l)




                                   Lirnits increased Due to Opponent's
                                   Spendlng (2 U.S.C. $441a0/441a-1)




                                    FEC Schoduk A (Form 3) (Revised 0212003)
                          28
                                                                                                                                                              Appendix B
SCHEDULE B (FEC Form 3) 	                                                                                                FOR UNE NUMBER:                              LPAGE                       OF
                                                                                  Use separate &edule(s)                 (chedc only one)
ITEMIZED DISBURSEMENTS 	                                                          for each catsgory of the                          17    18                                          I~a                             IS^
                                                                                  Deta#ed Summary Page
                                                                                                                                                20a            20b 	                  20c                             21
I
    Any information copied ftw'~ such Reports and Statements may not be odd or used by any person for the purpose of sdlclting contrlbutlons 

    or for cornmerclal purposes, other than using the name and eddress of any political committee to solicit contrlbutlons from such committee. 

       NAME OF COMMilTEE (in Full)


v	                                                                                                                                                                                                                            I
       Full Name (Last, First, Middle Initial)
A. 	                                                                                                                                   Date of Disbursement

       Mailing Address 	                                                                                                                                                        a*-    s   .      ea   *\a
                                                                                                                                                                                                              f


       cb 	                                                          State            Zip Code                                        Amount of Each Disbursement this Period
                                                                                                                                      $.-q'""w?pwFa*-9-                                    *at*   2-              -
       Purpose of Disbursement 	                                                                                                      5
                                                                                                                                                               w-S.?$811VI                                "
                                                                                                                                                                                                                        s-x
                                                                                                                                                                                                                      l fi




                                                                                                                                                          -&mww*&~,~-<w                                       &*-3

       Candidate Name                                                                                      Category/ 


                                                          Dlsbwsement For:
                                                                                                             Type
                                                                                                                                           n       Refund or Disposal of Excess 

                                                                                                                                                   Contributions Required Under 

                                                                                                                                                   11 C.F.R. 400.53 



       State:
                              0President
                         District 

                                                                u
                                                              npdmatv
                                                                      other i s ~ & G
                                                                                      n~eneral
                                                                                            


       Full Name (Last, First, Middle inltlal) 


B. 	                                                                                                                       I          Date of Disbursement

       Mailing Address
                                                                                                                           I
       City 	                                                       State            LIPCode
                                                                                                                                      Amount of Each Disbursement this Period

       Pwpose of Disbursement 	                                                                          [w-q*l                       4
                                                                                                                                      *g

      Candidate Name
                                                                                                         L*%&&,&A
                                                                                                           Catesorv/ 

                                                                                                             Type
      Office Sought:                                     Disbursement For:
                                                                                                                                           .          Refund or Dlsposal of Excess 

                                  House
                              -"

                              -	  Senate                         Primary              C]General                                            L&
  ":ntributlons       Required Under 

                                                                                                                                                      11 C.F.R. 400.53 

                             - Prasldent                              other (spew)        v 

      State:                 District 

      Full Name (Last, First, Middle initial) 

                                                                                                                                      Date of Dlsbursement 


       Mailing Address

      city 	

      Purpose of Disbursement
                                                              State          Up Code
                                                                                                                                  r v w - ! p ~ v ~- 7 ~
                                                                                                                                 Amount of Each Disbursement this p&od
                                                                                                                                                                     ,*";**$.   *     ~     W         r       s?
                                                                                                                                                                                                               ~       i*




      Candidate Name 	                                                                                     Category/
                                                                                                              w e                          , , 	 Refund or Disposal of Excess
      Office Sought:
                             -	
                             i    House
                                  Senate
                                                         Disbursement For:
                                                                  Primary             CZ]
                                                                                    General 

                                                                                                                                           * Contributions Required Under 

                                                                                                                                                 11 C.F.R. 400.53
                             ..

                             ,    President                       other (specify) 

      State:                 Estrict:


    SUBTOTAL of Disbursements This Page (optional).................................................................    b


    TOTAL This Period Qastpage this line number only) ..............................................................   b       4
                                                                                                                               .,.'                   . --a .... r:2
,.
                                                                                                                                           ....... .dA:.-                    ...;...          .#...    ­
 . . . ;.


                                                                                                                                               FEC &h.duk B (Fonn 3) (Revised 0212003)

                                                                                           29
                                                                         Appendix B

SCHEDULE C (FEC Form 3)




        Amount of Loan
       " " ' " ~ A ~ W ' r ~ r ~ y W ~ r r r : : : r ~




                     Date Incumed




                                                              FEC Sch.duk C (Form 3) (Revised 0212003)

                                                         30
                                                                      Appendix B
SCHEDULE C-I (FEC Form 3) 

LOANS AND LINES OF CREDIT FROM LENDING INSTITUTIONS 





LENDING INSTlNTlON (LENDER)                                           Interest Rate (AIR)




                                                        FEC Schedule C-I (Fonn 3) (Revised 0212003)
                                                                                                                                                                                                                    Appendix B
SCHEDULE D (FEC Form 3)                                                                                                                                                      (use seperete
                                                                                                                                                                                                                         1 PAGE                      OF
                                                                                                                                                                              schedule(a)               FOR LINE NUMBER:
DEBTS AND OBLIGATIONS                                                                                                                                                          for each                 (check only one)                                       9
Excluding Loans                                                                                                                                                              numbered Ilne)                                                                   10
  NAME OF COMMillEE (In Full)



     A. Full Name (Last, First, Middle Initial) of Debtor or Creditor                                                                                                             Nature of Debt (Purpose):



     Malllng Address 


     city                              State                               Zip Code 



       Outstanding Balance Beginning Thls Period 




                                                                                             Payment This Period                                                                   Outstanding Balance at Close of This Period
       ,w.e-.

       1
       a>e&
                $M . < * . " Z,* - p


                 mww.       &,a~~:~
                                       *y


                                       ~
                                  &ncut~
                                            --F-'-p-y-yy"-g

                                         - Ar
                                            Ar f
                                               i ) r!
                                                    r . ,n
                                                              r I
                                                               +-'.gxz-.



                                                         ~ i t l ,i
                                                                  c ~*  f a
                                                                     B i~ ~x
                                                                           ,d
                                                                             T




                                                                             ~ .?
                                                                              #A
                                                                                 "   "   y




                                                                                 . . =i. ~
                                                                                         % ,m
                                                                                             -




                                                                                              +~
                                                                                            is-.
                                                                                            w
                                                                                                 ~   ?




                                                                                                   r .-.
                                                                                               u ,..
                                                                                                         ~   -   "   v   ~   "   x   s   p   m   I   m   p   I   m   p   ~


                                                                                                                                                                                    r,'                         ii-*~G"F~~~~.,~
                                                                                                                                                                                                                               .
                                                                                                                                                                                      , * ~ m c m . ~ . . v ~ y A . * ~ . :3 .:.~ ~~ .~~ .*. ~$@~P~~ *sW->*
                                                                                                                                                                                                                                                         ~. <~> 
~
                                                                                                                                                                                                                                                                .%<,.,<



                                                                                                                                                                                                                                                                          i



     8. Full Name (Last, Rrst, MMdle Inltlal) of Debtor or Credltor                                                                                                              Nature of Debt (Purpose):



     Mailing Address 


     city                              State                               Zip Code 





                                                                                             Payment This Period




                                                                                                                                                                                           FEC Schedule D (Form 3) (Revised 02/2003)


FE5AN018
                                                                                                                                                                          Appendix B
FEC FORM 32 (File with Form 3) 

CONSOLIDATION REPORT OF RECEIPTS AND DISBURSEMENTS 

(To Be Used By A Principal Campaign Committee) 

Name of Principal Campaign Committee (In Full) 	                                        Report Covering Period: 

                                                                                        From:                                                       To:

                                                                                                                                                    )"* xiq7          I

                                                                                                                                                     a>&.z=*a




                                                                                                                                                           (a)                           @)
                                                                                                                                                      bne No. 11(a)                bne No. 11@)
                                                         Commtttee Name                                                                         Total Contributions From         Total Contributwxls
                                                                                                                                               IndlvJPerwns Other Than           From Pditlcal Party
                                                                                                                                                  Pditlcal Committees               Commntees


A

B Column Total Last Page Only............................................................................................................. 

                    (c)                              (dl                                (0)                                 0                                   (a)                      Q
              Line No. 11(c)                   bne No. 11(d)                      Line No. 11(e)                   Une No. 12                       bne No. 13(4                    Une No. 13@)
           Total Contrhtms                   Total conmutiw                           Totel                       Total Trnnsfers                Total Loans Made or                  Total All
           From Other Pokcal                      horn The                        Contributions                From Other Authorked                 Guar8riteed by                  other Loans
               C o m m                           CanckdPte                                                         Committees                       the Candtdate


    A

    B
                      0                                 Q                               (k)                                 (0                           (m)                              (n)
              bne    No 13(c)                   bne No. 14                          bne No 15                         bne No 16                      Clne No. 17                     bne No. 18
                    Total                      Total Offsets to                       Total                             Total                           Total                     Total Transfers to
                   Loans                          operating                           Other                            Receipts                       Operat~ng                   Other Authomed
                                                Expenditures                         Reca~pts                                                        Expendkures                     CommHtees

    A

    B
                    (0)
               I-me No. 19(a)                        (P)                                  (a                                (0                           (s) 	                           0)
                                                LIW NO l ~ @ ) 	                  bne ~ o I~(c)
                                                                                           .                       ~ n NO.
                                                                                                                         e 20(4                    une NO. w b )                   une NO 2qc)
               L"&REc
                   Total Loan Repayments
                     of All Other Loans
        Guaranteed by The Can-
                                                                                   Total Loan
                                                                                   Repayments
                                                                                                                  Total Contnbutm
                                                                                                                     Refunds to
                                                                                                                                                  Total ConMbutm
                                                                                                                                                  Refunds to Polklcal
                                                                                                                                                                                  Total Contribution
                                                                                                                                                                                  Refunds to Other
                dldate                                                                                           IndlvtduaWersons                 Party Cornmlttees              Pditical CommRtees


    A

    B
                   (u)                                (v)                              (w)                                 Q                                    64                       Q
              bne No 2qd)                        bne No. 21                        Line No 22                       Line No 23                       Clne No 27                      Line No. 9
                  Total                          Total Other                          Total                        Cash on Hand                     Cash on Hand                 Debto & Obltgatw
               Contnbut~on 	                    Dlsbursernents                    Dmbmnts                           Beginning of                      Ckse of                      Owed TO the
                Refunds                                                                                           Reporting Penod                  Repott~ngPenod                    CommMee


    A

    B
                     (aa)                           @b)                                (=)

             bne No 10                          Line No. 6(c)                     Une No. 7(c) 

          Debts 8 Obhgatms                    Net Contnbutiins                    Net Operatmng 

            Owed BY the                                                           Expendlturee 

              Commmw 



    A

    B



                                                                                                                                                                          FEC Fonn32 (Revised0212003)
                                                                                                                                                                                                    Appendix B
FEC FORM 32-1
CONSOLIDATED REPORT OF GROSS RECEIPTS FOR AUTHORIZED COMMITTEES (11 CFR 104.19)
(Millionaires' Amendment)


I        Name of Candidate                                                                                                                                                           Candidate ID Number                                                      1
                                                                                                                                                                                     a
                                                                                                                                                                                     L,L&sl,,,,,              3-      &,&,,,     *   ".     "            <~



         Name of Principal Campaign Committee                                                                                                                                        Committee ID Number
                                                                                                                                                                                                                                                          *

                                                                                                                                                                                                 dm,"&&,    & * m & * A A                        8 &-v   'J
         Committee Address


         City                                             State                                                              ZIP



         Report Covering Period (check one)
                                                                        L         through June 30, or                                               rl
                                                                                                                                                    wt
                                                                                                                                                                 through December 31 of the year

                                                                                   preceding the year of the general election



                                                                                                    Primary                                                                                         General

                                                                                                                                    $a"-exA.                        .
    1. Gross receipts of authorized                                 * ~ 4 * $ * v $ ~ m ~ c ~ ~ . ~ ~ G v , ~s'w. P ..*.*=~?-,w!&<?
                                                                                                                      L.~~                     *Z>,W."   .'./'A,,




                                                                    "
                                                                                             s       *         .        e     .        v        ,


       committees............................................       i .&--a,
                                                                           .4@bW3
                                                                                ,
                                                                                ,
                                                                                ,,
                                                                                 M,                                ~              s                  , .*,.., 4L-*.2k          ~ 





    2. Aggregate amount of contributions                                   ~ w ~ , n a n ~ ~ ~ - p ~ ~ a r z*~  ~ x a a i , L
                                                                                                            r a yi                                           -          ; -*     * q w u             -* v n
                                                                                                                                                                                           '-%'-%'-%'-%'>          s w * -9       *.*     -               5



       from personal funds of the candidate ...                     P       hLwa-w8
                                                                                                                                                                    !   L.
                                                                                                                                                                         d w    I -aw&..-r -A
                                                                                                                                                                            i-4~­                                         w..                             i


    3. Gross receipts minus the candidate's                 "y'*"p  ;      *""*'+"""                 *    "'
                                                                                                                   -***w*"   +*mi'li                                           ,*%n*$a~ . ~ > a ~
                                                                                                                                                                                                .n-r
                                                                                                                                                                                                   *,        ry,r*%
                                                                                                                                                                                                                      s
                                                                                                                                                                                                                          na-
                                                                                                                                                                                                                                e

                                                                                                                                                                                                                                     m>*w




       personal contributions........................... ;,&. ,,,,,,, , ,-                                             e4Lh-mr,d                                                               U.   am^^...-                   -.&, a*?         .A, 





                                                                                                                                                                                                 FEC Fonn 32-1 (Revised 0212003)
                                                                                                                                                                            Appendix C
r 	                                  REPORT OF RECEIPTS
    FEC
                                     AND DISBURSEMENTS
  FORM 3X                           For Other Than An Authorized Committee
                                                                                                                                                                      OMce Use Only

1. 	 NAME OF                          TYPE OR PRINT v                                      Example: If typing, type
     COMMIlTEE (in full)                                                                   over the lines.




                                            I   I     1       I   I   1   I    I   I   I    I   I     I   I   I   I       I       l       I   I   I   L   I   I   I     I    1    I    I    I    1   1   1
          Check if different
 (1       than previously 

          reported. (ACC)              I    l    l       l    l   l   l   l    l   l   l    l    l    l   l   l       l       l       l           II i L l J - ~
2. 	 FEC IDENTIFICATION NUMBER                       V                        CITY A 	                                                         STATE A                           ZIP CODE A

                                                                           3. 	 IS THIS                           NEW                                         AMENDED
                                                                                REPORT                0           (N) OR                                      (A)


4. 	 TYPE OF REPORT
     (Choose One) 	
                                            (b) Monthly
                                                Report
                                                                      1       Fab 20 (M2)                         May 20 (M5)                         a    Aug 20 (Ma)                          Nov 20 (MI1)
                                                                                                                                                                                                tEzF

                                                Due On: 

                                                                              MU 	 20 ( ~ 3 )                     Jun 20 (M6)                              Sep 20 (M9)                     Dec 20 (M12)
     (a) 	 Quarterly Reports: 	
                                                                              Apr 20 (M4)                         Jul 20 (M7)                         a    Oct 20 (MIO)
                                                                                                                                                                                      i!zlWYe=
                                                                                                                                                                                      C1/
                                                                                                                                                                                           +-imW)

                                                                                                                                                                                           Jan 31 (YE)
       lj
       r''S
                  April 15 	
                  Quarterly Report (Q1) 	
                                                (c)          12-Day                             Primaty (12P)                                 a       General (12).              a              Runoff(12R)

                  July 15
                  Quarterly Report (Q2)
                                                             PRE-Election

                                                             Report for the:                    Convention (12C)                              n       special (12s)
       i?i        October 15
                  marte* W r t

       CI         4E$%3Aeport      (YE)
                  . I 4 31 Mid-Year
                  Report (Non-election 

                  Year Only) (MY)
                                                (d)          30-Day

                                                             POST-Election
                                                             Report for the: 

                                                                                       a        General (30G)                                 a       Runoff (3OR)               13         Spedal (30s)

       p'"% Termination Report 

       Ld         (TER) 

                                                                          Election on 	                                                                                          State of


5. 	 Covering Period 	                                                                               through                  a 

I certify that I have examined this Report and to the best of my knowledge and belief it is true, correct and complete.




Signature of Treasurer 	                                                                                                                      Date


NOTE: Submission of false, erroneous, or incomplete information may subject the person signing this Report to the penalties of 2 U.S.C. 54379.
              Office 	
               Use 	
                                                                                                                                                                      FEC FORM 3X
L             onhl
                                                                                                                                                                             Rev. 1212004
                                                                                                                                                                                                         A
                                                                                                          Appendix C
r 	       FEC Form 3X (Rev. 02J20031
                                                                 SUMMARY PAGE
                                                           OF RECEIPTS AND DISBURSEMENTS
                                                                                                                   Paae 2
  Write or Type Committee Name




  Repat Covering the Period:             From: 	     CZ] '                                    To:


                                                                         COLUMN A                        COLUMN B
                                                                         Thls Perlod                Calendar Year-to-Date

6. 	 (a) Cash on Hand
            January 1,

     (b) 	 Cash on Hand at 

           Beginning of Reporting Period............ 



     (c) 	 Total Receipts (from Line 19) ............. 


     (d) 	 Subtotal (add Lines 6(b) and 

           6(c) for Column A and Lines 

           6(a) and 6(c) for Column 8)............... 



7. 	 Total Disbursements (from Line 31) ........... 


8. 	 Cash on Hand at Close of
     Reporting Period
     (subtract Line 7 from Line 6(d)) .................

9. 	 Debts and Obligations Owed TO
    the Committee (Itemize all on
    Schedule C andlor Schedule D) ................

10. 	 Debts and Obligations Owed BY
      the Committee (Itemize all on
      Schedule C andlor Schedule D) ................




 El      This committee has qualified as a multicandidate committee. (see FEC FORM 1M)


                                                           For further lnformatlon contact:

                                                             Federal Election Commission 

                                                                  999 E Street, NW 

                                                               Washington, DC 20463 


                                                               Toll Free 800-424-9530 

                                                                 Local 202-694-1100 

                                                                                                                                                               Appendix C
r 	         FEC Form 3X (Rev. 0212003) 	
                                                                        DETAILED SUMMARY PAGE
                                                                               of Receipts
                                                                                                                                                                       Page 3
                                                                                                                                                                                           1
  Write or Type Committee Name




  Report Covering the Period:                     From:


                        I. Recelpts
                                                                                   COLUMN A
                                                                                Total T h k Period                      I

                                                                                                                        I
                                                                                                                                                   COLUMN B
                                                                                                                                              Calendar Year-to-Date
11. 	 Contributions (other than loans) From:
      (a) 	 lndividualsPersons Other 

            Than Political Committees 

            (i) Itemized (use Schedule A) ............ 


            (ii) Unitemized ..................................... 

            (iii) TOTAL (add
                  Lines ll(a)(i) and (ii).................         ,
    (b) 	 Political Party Committees .................. 

    (c) 	 Other Political Committees
          (such as PACs).................................... 

    (d) 	 Total Contributions (add Lines
          ll(a)(iii), (b), and (c)) (Carry
          Totals to Line 33, page 5)
12. Transfers From AffiliatedIOther
                                                               ,
                                                  ..............
    Party Committees........................................

13. All Loans Received..................................... 


14. 	 Loan Repayments Received....................... 

15. Offsets To Operating Expenditures
      (Refunds, Rebates, etc.)
      (Carry Totals to Line 37, page 5)              ...............
16. 	 Refunds of Contributions Made
      to Federal Candidates and Other                                                          mmp	t       %


      Political Committees....................................
17. 	 Other Federal Receipts
      (Dividends, Interest, etc.) ............................
18. Transfers from Non-Federal and Levin Funds
      (a) Non-Federal Account
           (from Schedule H3) .............................


     (b) Levin Funds (from Schedule H5)                   ......... 

     (c) Total Transfers (add 18(a) and 18(b)) ..



19. 	 Total Receipts (add Lines ll(d),
      12, 13, 14, 15, 16, 17, and 18(c)) .........             ,
                                                                                                                    -            '.
                                                      .........,
20. 	 Total Federal Receipts                                                                       as--..VVJ   *             P     z:   wAwwa                    %,w     +M~%-*,   *B*,?

                                                                                                                                                                                           '1
                                                                                                                                  v
                                                                                                                             i    	
      (subtract Line 18(c) from Line 19)
                                                                                                               *	                       ,   &*,.,.   *-a.i.,    & ,,vM
                                                                                                                                                                     .,.v -r,   . % -x"    :
                                                                                                               Appendix C

I
                                                                           DETAILED SUMMARY PAGE
                                                                                of Disbursements
                                                                                                                                 1
              .FEC
                -....Farm            -
                               ,.. .. 02M)OS\
                     ...... 3X (Rev.  - -. -- - - , 	                                                                     -

                   II. Disbursements 	                                                COLUMN A                COLUMN B
                                                                                   Total This Period 	   Calendar Year-to-Date
21. 	 Operating Expenditures:
      7   z

              Activity (from Schedule H4)
              (i) 	Federal Share         ............................. 

            (ii) 	 Non-Federal Share...................... 

      (b) 	 Other Federal Operating
            Expenditures....................................... 

      (c) 	 Total Operating Expenditures 

            (add 21(a)(i), (a)(ii), and (b)) ............. b 

22. 	 Transfers to AffiliatedtOther Party
      Committees................................................. 

23. 	 Contr~butionsto
      Federal CandidatesCommittees
      and Other Political Committees ................. 

24. 	 Independent Expenditures




26. 	 Loan Repayments Made............................ 


27. 	 Loans Made................................................ 

28. 	 Refunds of Contributions To:
      (a) 	 lndnndualslPersonsOther
            Than Political Committees ................. 


      (b) 	 Political Party Committees ................. 

      (c) 	 Other Political Committees 

            (such as PACs)................................... 


      (d) 	 Total Contribution Refunds 

            (add Lines 28(a), (b), and (c))........... b 


29. 	 Other Disbursements................................. 


30. 	 Federal Election Activity (2 U.S.C. §431(20))
      (a) 	 Allocated Federal Election Activity 

            (from Schedule H6) 

            (i) Federal Share ................................ 


            (ii) "Levin" Share ................................ 

      (b) 	 Federal Election Activity Paid Entirely 

                  Wih Federal Funds ................. 

      (c) 	 Total Federal Election Activity (add .. 

             Lines 30(a)(i), 30(a)(ii) and 30(b)) .... b 


31.	 Total Disbursements (add Lines 21(c), 22,
     23, 24, 25, 26, 27, 28(d), 29 and 30(c))..

32. 	 Total Federal Disbursements
      (subtract Line 2l(a)(ii) and Line 30(a)(ii)
                                            ..
      from Line 31).................... ...................... b 

                                                                                                      Appendix C
                                                                     DETAILED SUMMARY PAGE
I                                                                         of Disbursements                                I

             FEC Form 3X (Rev. 02t2003)                                                                        Page 5 

    Ill. Net ContributlonsK)~eratlna Ex-
                       pendltures
                                                      -                         COLUMN A
                                                                             Total This Period
                                                                                                      COLUMN B
                                                                                                 Calendar Yearto-Dato

33. 	 Total Contributions (other than loans)
      (from Line Il(d), page 3) ..........................
34. 	 Total Contribution Refunds
      (from Line 28(d)) ........................................ 

35. 	 Net Contributions (other than loans)
      (subtract Line 34 from Line 33) ................
36. 	 Total Federal Operating Expenditures
      (add Line 21(a)(i) and Line 21(b)) .........
37. 	 Offsets to Operating Expenditures
      (from Line 15, page 3) ..............................
38. 	 Net Operating Expenditures
      (subtract Line 37 from Line 36) ..............):
                                                                                                                                                           Appendix C
SCHEDULE A (FEC Form 3X) 	
                                                                                Use separate schedule(s)
                                                                                                                                  FOR LINE NUMBER:               1 PAGE                               OF
                                                                                                                                  (check only one)
ITEMIZED RECEIPTS                                                               for each category of the
                                                                                                                                                                                                 12
                                                                                Detailed Summary Page
                                                                                                                                                                                                 16           n 1 7
 Any informatbn copied from such Reports and Statements may not be soM or used by any person for the purpose of soliciting contributions 

 or for commercial purposes, other than using the name and address of any political committee to mliclt contributions from such committee. 

       NAME OF COMMllTEE (In Full)


v	                                                                                                                                                                                                                        I
       Full Name (Last, First, Middle Initial)
A. 	                                                                                                                                   Date of Receipt


--
       Mailing Address

       city                                                       State           Zip Code 

                                                                                                                                       m'm'
                                                                                                                                       Amount of Each Receipt thls Period 

       FEC ID number of contributing 

       federal political committee. 


       Name of trnployer 	                                     I Occupation

       Receipt For:                                             Aggregate Year-to-Date v             

            Primary           General 

        !J  Other (specify) v

       Full Name (Last, First, Middle Initial)
                                                          I	                                                                      I

6. 	                                                                                                                                   Date of Receipt
       Mailing Address                                                                                                                          I                I




       FEC ID number of contributing 

       federal political committee. 


       Name of tmpbyer 	                                        Occupation




     Name of tmpioyer                                          Occupation

       Receipt For:                                             Aggregate Year-to-Date V
            Primary             General




 SUBTOTAL of Receipts This Page (optional).............................       . ............................................. 

                                                                                                                                                             .    '   ~          C   B   '   ~   -    ~   s   >   ,,qii
                                                                                                                                                                                                                      *
                                                                                                                                                                                                                    1
 TOTAL This Period (last page this line number only) ...............................................................
                                                                                                                 b                                                                                                   $

                                                                                                                                            *w.*,>%-3*~-&
                                                                                                                                        $ ~ L     ~ > ~          w>&&     $
                                                                                                                                                                          .*:&       %.*..A &\dV
                                                                                                                                                                                         .*.&



                                                                                                                                                    FEC Schedule A (Form 3X) Rev. 0212003
                                                                                        40
                                                                   Appendix C
- - .- --   -   -.-   -   .--   -   -   .-.
SCHEDULE B (FEC Form 3X) 

ITEMIZED DISBURSEMENTS 





                                                   Date of Disbursement




                                                          FEC Schedule B (Form 3X) Rev. 0212003
                                              41
                                                                                                                                                 Appendix C
SCHEDULE C (FEC Form 3X)
                                                                                                  Use separate schedule(s) 

LOANS 	                                                                                           for each category of the 

                                                                                                  Detailed Summaty Page                   FOR LINE 13 OF FORM 3X

    NAME OF COMMITTEE (In Full)


                         CE Full Name (Last, Flrst, Middle Initial)                                                            tkWn:
                                                                                                                                 Primary
                                                                                                                                 General
           Mailing Address 	                                                                                                     Other (specify)

      1 City 	                                                 State                ZIP Code                         
 -1
             Original Amount of Loan 	                           Cumulative Payment To Date                          Balance Outstanding at Close of This Period



           TERMS 

                                                                                Date Due                     Interest Rate                                       Secured: 


                                                            m'r""r' 	                                                                     % (apr)                 n   yes     13
                                                                                                                                                                               NO

           List All Endorsers or Guarantors (if any) to Loan Source
           1. kull Name (Last, klrst, Middle Initial) 	                                         Name of Employer
      I	                                                                                    I
               Mail~ngAddress 	                                                                 Occupation




                                                                                            I
           2. Full Name (Last, I-lrst, Middle Initlal) 	                                        Name of tmployer
                                                                                            I
              Malllng Address 	                                                                 Occupation




                                                                                            I
           3. Full Name (Last, tlrst, Mlddle lnltial) 	                                         Name of tmployer

              Ma~lngAddress 	                                                                   Occupation




           4. tull Name (Last, t-lrst, Mlddle Inlt~al) 	                                        Name of tmployer
                                                                                            I
              Malllng Address 	                                                                 Occupation




    SUBTOTALS This Period This Page (optional).............................................................. b                                                         "Y~.?
                                                                                                                                      W+.,.,.l,,,,,b~~;~,h~~..!k,,~~,,,~,r.,.

                                                                                                                                                          yw.>',,~,.".
                                                                                                                    tag.urvmvslFag.ur'r'r'r'y-w2.9'"9'"9'"9'"9'"9'"        ,
                                                                                                                                                                  ,, as2 .,,


    TOTALS This Period (last page in h i s line only).....................................................   b
             <m+AAe


I   Carry outstanding balance only to LINE 3, Schedule Dl for thls llne. If no Schedule Dl carry forward to appmprlate llne of Summary.                                             I

                                                                                                                                  FEC Schdulr C (Form SX) Rev. 02/2003
                                                                                                               Appendix C
 -.    -   - --   -   -      ---    -         - -­


SCHEDULE Gl (FEC Form 3X) 

LOANS AND LINES OF CREDIT FROM LENDING INSTITUTIONS 





LENDING INSTKUTION (LENDER) 	                                  Amount of Loan




                                                                Date Incurred or Established




                  Date account established:




  I.   TO BE SIGNED BY THE LENDING INSTITUTION:
        I. 	 To the best of this institution's knowledge, the terms of the loan and other information regarding the extension of the loan
             are accurate as stated above.
       II. 	 The loan was made on terms and conditions (including Interest rate) no more favorable at the time than those imposed for




                                                                                                    FEC Schedule GI (Fonn 3X) Rev. 02i2003
                                                                  43
                                                                                                                                                Appendix C
SCHEDULE D (FEC Form 3X)
DEBTS AND OBLIGATIONS




                                                                                                                      f   "'mq   ""'NM-?,v*m"    .y& w p & m ~ m ~

2) TOTALS This Period (last page this line number only)   ......................................................b 





                                                                                                                                    FEC Schedule D (Fonn 3X) Rev. 02i2W3
                                                                                                                                                               Appendix C
SCHEDULE E (FEC Form 3X)
ITEMIZED INDEPENDENT EXPENDITURES                                                                                                                            PAGE         OF
                                                                                                                                                             FOR LINE 24 OF FORM SX
    NAME OF COMMITTEE (In Full)                                                                                                                      FEC IDENTIFICATION NUMBER


       Check if ~ 2 C h o u notice
                               r                  I-1
                                               4&hour notice 

       Full Name (Last, First, Middle Initial) of Payee                                                                                     Date 



       Mailing Address
                                                                                                                                            Amount
                                                                            State                 Zip Code




       Name of Federal Candidate Supported or Opposed by Expenditure:
                                                                                           I



                                                                                                                                      Check One:
                                                                                                                                                         [3 PresMent
                                                                                                                                                         C]Support        UOppose-1
              Calendar Year-To-Date Per Election                                                                                      Disbursement For:    C]Primary          General
                               for Office Sought
                                                                                                                                  I
                                                                                                                                               Other (specify)     ,
       Full Name (Last, First, Middle Initial) of Payee                                                                                     Date


       Mailing Address                                                                                                                         rlFml


                                                                                                                                                           C]Primary
             Calendar Year-To-Date Per Election
                              for Office Sought
                                                                                                                                      Disbursement For:
                                                                                                                                               a h e r (specify)   ,          General




     (a) SUBTOTAL of Itemized Independent Expenditures ............................................................ b 




I    (b) SUBTOTAL of Unitemized Independent Expenditures                        ........................................................b
     (c) TOTAL Independent Expenditures .......................................................................................
                                                                                                                                      b


     Under penalty of perjury I certify that the independent expenditures reported herein were not made in cooperation, consultation, or concert
     with, or at the request or suggestion of, any candidate or authorized committee or agent of either, or (if the reporting entity is not a political
     party committee) any political party committee or its agent




                                                                                                                           Date 

        Signature 





                                                                                                                                                     FEC Schedule E (Form 3X) Rev. 02/'2003
                                                                                                                                                    Appendix C
SCHEDULE F (FEC Form 3X)
ITEMIZED COORDINATED PARTY EXPENDITURES MADE BY
POLITICAL PARTY COMMrrl'EES OR DESIGNATED AGENT(S)
ON BEHALF OF CANDIDATES FOR FEDERAL OFFICE                                                                                                      1 PAGE                                            OF           1
(2 U.S.C. g441a(d))   (TO be used only by Polltlcal Cornmlttees In the General E l e l o n )                                                     FOR LINE 25 OF FORM 3X
NAME OF COMMITTEE (In Full)


Has your committee been designated to make                I FUN Name of Subordinate Committee 

                                                                                                                                                10                         Check If
                                                                                                                                                                           #hour notice


coordinated expenditures by a political party committee? 

          YES           NO 

H YES, name the designating committee:                      Mailing Address 


                                                                  City                                                                      State                        ZIP Code


      Full Name (Last, First, Middle Initial) of Each Payee                                                                      Purpose or txpendlture




      Aggregate General Election
                                                                                                                                       Limit Raised Due to Opponent's Spend-
      Expendire for this Candidate b
                                                                                                                                       ing (2 U.S.C. w41 a(i)l441e-1)


  I   Full Name (Last, First, Middle Initial) of Each Payee                                                                  Purpose of Expediture


                                                                                                                                                                                                   Category1
      Mailing Address                                                                                                                                                                                Type
                                                                                                                                   Date
      City                                             State                  Zip Code
                                                                                                                                                                                                       a

                                                                                                                                  a    Limit Raised Due to Opponent's Spend
                                                                                                                                       ing (2 U.S.C. §441a(i)/441a-1)




      Mailing Address                                                                                                        I                                                                    Category1
                                                                                                                                                                                                    Type




 SUBTOTAL of Expenditures This Page (optional)      .....................................................................b                                                                                 i
                                                                                                                                                    .-i-*.l,,a*Zn&~t:ea~.~ml**li.&w.-
                                                                                                                                                    ..*;au
                                                                                                                                                                      -4
                                                                                                                                                             7.a.w:.a-.i~.&-,*~;bw1.1.?-;"9999i
                                                                                                                                                       I           1




                                                                                                                                          FEC Schedule F (Form 3X) Rev. 0212003
                                                                                     46
                                                                                                                    Appendix C
SCHEDULE H I (FEC Form 3X)

METHOD OF ALLOCATION FOR:
  ALLOCATED FEDERAL AND NONFEDERAL ADMINISTRATIVE, GENERIC VOTER 

  DRIVE AND EXEMPT ACTIVITY COSTS 

  ALLOCATED FEDERAL AND LEVlN FUNDS FEDERAL ELECTION ACTIVITY 

  EXPENSES (State, District and Local Party Committees Only) 

  ALLOCATED PUBLIC COMMUNICATIONS THAT REFER TO ANY POLITICAL PARTY 

  (BUT NOT A CANDIDATE) (Separate Segregated Funds And Nonconnected Committees Only) 

NAME OF COMMllTEE (In Full)




                                       USE ONLY ONE SEC'TION, A or B

  A. State and Local Party Committees
           Fixed Percentage (select one)


          -Presidential-OnlyElection Year (28% Federal)
          -Presidential and Senate Election Year (36% Federal)
          -Senate-Only Election Year (21% Federal)
          -Non-Presidential and Non-Senate Election Year (15% Federal)


  B. Separate Segregated Funds and Nonconnected Committees
          Flat Minimum Federal Percentage
          If the committee will allocate using the flat minimum percentage of 50% federal funds, check                           0
          or
          If the committee is spending more than 50% federal funds, indicate ratio below

                    Federal....................................................................... 


                    Nonfederal................................................................. 


          This ratio applies to (check all that apply):

          Administrative    a            Generic Voter Drive                          Public Communications Referencing Party Only
                                                                                                                                         %%*I 

                                                                                                                                         I.



                                                                                                          FEC Schedule HI (Fonn 3X) Rev.12R004
                                                                                                                   Appendix C
SCHEDULE H2 (FEC Form 3X)
ALLOCATION RATIOS
                                                                                                                    I

NAME OF COMMITTEE (In Full)


RATIOS FOR ALLOCABLE FUNDRAISING EVENTS AND DIRECT CANDIDATE SUPPORT 

ACTIVITIES APPEARING ON THIS REPORT. 

Methods of allocation:
        I. FUNDRAISING activities are allocated using the 'funds received method" where the federal proportion of 

            expenses must equal the federal proportion of monies raised. 

        II. Shared DIRECT CANDIDATE SUPPORT activities are allocated according to benefit expected to be derived,
            where the federal proportion of disbursements is based on the benefit derived by federal candidates from the ac­
            tivity. For PAC8 Only: Direct candidate support includes public communications or voter drives that refer to both
            federal and nonfederal candidates, regardless of whether there is a reference to a political party. Such expenses
            are allocated using a timetspace method.
  I ACTIVITY OR EVENT IDENTIFIER
                                                                                             FEDERAL X                  NONFEDERAL %
      ACTIVITY IS:
             Fundraising         0
                                 Direct Candidate Support                                                                               Oh
      CHECK IF THE RATlO IS:
         [7 New           Revised                 Same as Previously Reported
  I
      ACTIVITY OR EVENT IDENTIFIER
                                                                                             FEDERAL %                  NONFEDERAL %
      ACTIVITY IS:
          n  Fundraising     >
                             :[re
                                ict             Candidate Support                                         /a
                                                                                                          0'                            YO
      CHECK IF THE RATlO IS:
                                                           Same as Previously Reported

      ACTIVITY OR EVENT IDENTIFIER

      ACTIVITY IS: 

                                                                                             FEDERAL %         I        NONFEDERAL X

          a  Fundraising
      CHECK IF THE RATlO IS: 

                                 Direct Candidate Support 


             New          Revised                  C]
                                                  Same as Previously Reported 


      ACTIVITY OR EVENT IDENTIFIER
                                                                                             FEDERAL %                  NONFEDERAL "b
      ACTIVITY IS:
          C] Fundraising                  Direct Candidate Support
      CHECK IF THE RATlO IS:
                                                           Same as Previously Reported
                                                                                         I                     I

      ACTIVITY OR EVENT IDENTIFIER
                                                                                             FEDERAL %         1        NONFEDERAL %
      ACTIVITY IS:
             Fundraising      []I) Direct Candidate Support
 1    CH,ECK IF THE RATlO IS:
          0  New           Revised                C]Same as Previously Reported

      ACTlVlN OR EVENT IDENTIFIER
                                                                                             FEDERAL %         1        NONFEDERAL %
      ACTIVITY IS: 

          Cl]Fundraising     [:.- I   A   Direct Candidate Support 

      CHECK IF THE RATlO IS:
          I--'-/ New     p Revisad                n        Same as Previously Reported




                                                                                                    FEC Schdula HZ (Form 3X) Rev. 12/2004
                                                                                                                                                                               Appendix C
    SCHEDULE H3 (FEC Form 3X)
    TRANSFERS FROM NONFEDERAL ACCOUNTS FOR                                                                                                                                   PAGE         OF
    ALLOCATED FEDERAL / NONFEDERAL ACTIVITY
                                                                                                                                                                             FOR LINE 18a OF FORM 3X
    NAME OF COMMllTEE (In Full)


                                                                                         I DATE OF RECEIPT                                                          TOTAL AMOUNT TRANSFERRED




          BREAKDOWN OF TRANSFER RECEIVED
           I) Total Admlnlrtratlve                ............................................................................................................. 


           11) Generic Voter Drlve                ............................................................................................................. 


           Ill) Exempt Activltles ................................................................................................................... 


      I    lv) Dlred Fundralslng (List Activity or Event Identifier)




                b)


                c) Total Amount Transferred For Direct Fundraising .............................................................

           v) Mrsct Candidate Support (List Activity or Event Identifier)

                                                                                                                                                                                                        I

                c) Total Amount Transferred For Direct Candidate Support.................................................. 





                                                                     TOTALS FOR BREAKDOWN OF TRANSFER RECEIVED 

                                                                                                                                                                                                        I

    TOTAL This Period (Administrative) .......................................................... 



    TOTAL This Period (Generic Voter Drive) ....................................................... 



    TOTAL This Period (Exempt Activities) .................................................................. 



    TOTAL This Period (Direct Fundraising) ....................................................................... 



    TOTAL This Period (Direct Candidate Support) .................................................................. 



    TOTAL This Period (Public Communications Referring Only to Party)                                            .................................. 


    TOTAL This Period (Total Amount Transferred).......................                              .. ..................................................... 

I                                                                                                                                                                                                       I
FE5AN015                                                                                                                                                             FEC &hdula H3 (Form 3X) Rev. 12/2004
                                                                                                                  49 

                                                                                                                                                                          Appendix C
SCHEDULE H4 (FEC Form 3x1
                                                                                                                                                                       PAGE                  OF
DISBURSEMENTS FOR ALLOCATED
FEDERAUNONFEDERALACTIVITY                                                                                                                                              FOR LINE 21a OF FORM 3X
 NAME OF COMMllTEE (In Full)


A.   Full Name (Last, First, Middle Initial)
                                                                                                                                 -
                                                                                                                                 Allocated Activity or Event:
                                                                                                                                 L
                                                                                                                                 A       Administrative
                                                                                                                                                                     -
                                                                                                                                                                                Fundraising
                                                                                                                                                                                                  ,--""
                                                                                                                                                                                                       Exempt
     Mailing Address
                                                                                                                                 rr] Voter Drive                     0Direct Candidate Support
                                                                              State       Zip Code                                       Public Comm (ref to party only) by PAC
                                                                                                                                    Allocated Activity or Event Year-To-Date


     Activitv or Event Identifier:                                                                                           1
                         FEDERAL SHARE                                        +       NONFEDERAL SHARE                             --                            TOTAL AMOUNT



B.   Full Name (last. First. Middle Initial)                                                                                 1 Allocated Activity or Event:
     Mailing Address
                                                                                                                                 j-..A   Administrative              u          Fundraising            Exempt
                                                                                                                                 U Voter Drive C]Direct Candidate Support
                                                                              State       Zip Code                           1           Public Comm (ref to patty only) by PAC
                                                                                                                                    Allocated Activity or Event Year-To-Date


     Activity or Event Identifier:



                         FEDERAL SHARE                                        +       NONFEDERAL SHARE                             --                           TOTAL AMOUNT



C.   Full Name (Last, First, Middle Initial)                                                                             1 Allocated Activity or Event:
                                                                                                                         1               Administrative                         Fundraising
                                                                                                                                                                                          -           Exempt
     Mailing Address
                                                                                                                         In              MM M v e                               Direct Candidate Support
     City                                                                     State      Zip Code                                i]Public Comm (ref to party only) by PAC
                                                                                                                                   Allocated Activity or Event Year-To-Date




 SUBTOTAL of Allocated Federal and NonFederal Activity This Page

       swwg r+
                     FEDERAL SHARE
                   qst   ' i ~ a m ~ ~ s i $ w s m qh~ vpq xi i a a a p ~ ~
                                                                                      NONFEDERAL SHARE                            -                            TOTAL AMOUNT

                                                                      7+
                              em@p".g.. -a qi na h      s u A wa          g + v r n q - % ~ w ~ v ~u   ma%yw              4).,warg


                                                                                                                                         L&*-$aA%*
                                                                                                                                             i m                                         V    r               6 r




       L                  &    &    v   ~   &    d

 TOTAL This Period (last page for each line only)(Fe
                                                     v   ~   +    h   a   d                                   03
                                                                                                       &i&amtii-c

                                                                                                   nFedera1 share to 21 (a)(ii))
                                                                                                                                                                           daaaa*                d*I ~ ~ ~ ~
                                                                                                                                                                                        n & - .i'$p.'$p.            $

                 FEDERAL SHARE                                                        NONFEDERAL SHARE                                                         TOTAL AMOUNT
                                                                                                                                                      -qpm"$"'L P ' " ~ ~ * wp?m%&v*r"">
                                                                                                                                                                            "           %,

                                                                                                                                                                                                                    L
                                                                                                                                                                                  *.,   C m*&%"x,&b.@*?,        4 

                                                                                                                                                   FEC Schedule H4 (Form 3X) Rev. 1212004
                                                                                            50
                                                                                                                                             Appendix C
SCHEDULE H5 (FEC Form 3X)
TRANSFERS OF LEVlN FUNDS RECEIVED FOR
ALLOCATED FEDERAL ELECTION ACTIVITY
(To be used by State, Dlstrlct and Local Party Committees Only)
 NAME OF COMMITTEE (In Full)




   BREAKDOWN OF THlS TRANSFER 

                                                                                                    VOTER REGISTRATION 

           I) 	 Voter Reglstratlon                                                                                            
4-
                 Total Amount Transferred for Voter Registration.....
                                                                                                                 VOTER ID 

           11) Voter ID 

               Total Amount Transferred for Voter ID ............................... 

                                                                                                                           GON
           Ill) 	 GOlV 

                 Total Amount Transferred for GOTV ................................................ 

                                                                                                                       GENERIC CAMPAIGN ACTIVITY
           lv) Generic Campaign Actlvlty
               Total Amount Transferred for Generic Campaign Activity .............................. 



   NAME OF ACCOUNT 	                                               DATE OF RECEIPT                                      TOTAL AMOUNT TRANSFERRED
                                                                                                I




   BREAKDOWN OF THlS TRANSFER 

                                                                                                    VOTER REGISTRATION 

           I) 	 Voter Regldratlon
                 Total Amount Transferred for Voter Registration .....
                                                                                                                 VOTER ID 

           11) Voter ID 

               Total Amount Transferred for Voter ID ............................... 

                                                                                                                           GOTV
           Ill) GOTV 

                Total Amount Transferred for GOTV ................................................ 


           Iv) Generlc Campalgn Actlvlty 

               Total Amount Transferred for Generic Campaign Activity .............................. 



                                      TOTALS FOR BREAKDOWN OF TRANSFER RECEIVED (Last Page Only)


       TOTAL This Period (Voter Registration)               .............................. 

       TOTAL This Period (Voter ID) ....................................................... 



       TOTAL This Period (GOTV)............................................................................. 



       TOTAL This Period (Generic Campaign Activity)....................................................... 



       TOTAL This Period (Total Amount of Transfers Received).................................................... 

                                                                                                                           . p " m % p . 4 ' " . 3p  ~
                                                                                                                                                  8 *F b s~
                                                                                                                                                          ~*wp"'*!ep1'Wp-W
                                                                                                                                                                                         s
                                                                                                                                                         ,i"i $9   <Wm$%i"it i * *
                                                                                                                                                                                         i
                                                                                                                                                                                     ** tb3



                                                                                                                               FEC Schedule H5 (Fonn 3X) Rev. 0212003
                                                                                                                                              Appendix C
SCHEDULE H6 (FEC Form 3X)

DISBURSEMENTS OF FEDERAL AND LEVlN FUNDS 

FOR ALLOCATED FEDERAL ELECTION ACTIVITY 

(To be used by State, Dlstrlct and Local Party Committees Only) 

NAME OF COMMITTEE (In Full)



    A. Full Name (Last, First, Middle Initial) IFull Organization Name                                                       of Albcated Activity or Event:
                                                                                                                             Voter Registration               GOTV
                                                                                                                             Voter ID                  Generic Campaign


   Nailing Address                                                                                                          Allocated Activity or Event Year-To-Date
                                                                                                                                                                           I
   purpose of Disbursement
                                                                                                              Tvoe

                                    FEDERAL SHARE                                           +   LEVlN SHARE            --                TOTAL AMOUNT



    B. Full Name (Last, First, Middle Initial) IFull Organization Name                                               Type of Allocated Activity or Event:
                                                                                                                         Voter Registration                 GOTV
                                                                                                                         Voter ID                    Generic Campaig~


   &lad~ng Address                                                                                                          Allocated Activity or Event Year-To-Date




                                   FEDERAL SHARE                                            +   LEVlN SHARE           -                  TOTAL AMOUNT



   C. Full Name (Last, First, Middle Initial) IFull Organization Name                                                Type of Allocated Activity or Event:
                                                                                                                         Voter Registration
                                                                                                                         Voter ID
                                                                                                                                                 9 
        GOTV
                                                                                                                                                     Generic Campaigr

                                                                                                                            Allocated Activity or Event Year-To-Date
   Mailing Address
                                                                                                                                                                       t




SUBTOTAL of Shared Federal and Levin Activity This Page 

              FEDERAL SHARE                                                                 +   LEVlN SHARE           ­
-                TOTAL AMOUNT 

 V---.."i     " '"p'"*'"" w-
     B
     LA     B B * - ~ & m ~ ~ . X a ~ a x a x a & ~ ~ & ~ ~.dm
                                                            "~~~
TOTAL This Period (last page for each line only)(Federal share to 30(a)(i) and Levin share to 30(a)(il))
                FEDERAL SHARE
     C'"X"",*"" " " ' . * " b :,: " " " ' " "
                                            .'%   IX-"X,,U)w*-.   IICIIYI^,
                                                                      .r      Z101 w-2- i
                                                                                                                                        TOTAL AMOUNT
                                                                                                                                                mv'r*"'YXBL~~-bili*
                                                                                                                                                                           I
                                                                                                                                  FEC Schedule HS (Form 3X) Rev. 0212003
                                                                                                  52
                                                                                         Appendix C
SCHEDULE L (FEC Form 3X)
AGGREGATION PAGE: LEVlN FUNDS




 1.   RECEIPTS FROM PERSONS
        (a) Itemized ..................................... 

          (Uw Scheduls L-A)


           (b) Unitemized .................................. 


           (c) Total ............................................. 


 2.   OTHER RECEIPTS................................ 


3.    TOTAL RECEIPTS ................................. 





          (a) Voter Registration....................... 


          (b) Voter ID....................................... 


          (c) GOTV .......................................... 





8.    RECEIPTS.............................................. 

          (horn Line 3)


9.    SUBTOTAL            ............................................ 

          (Add Llnrs 7 and 8)


10.   DISBURSEMENTS ................................. 

          (From L h 6)


11.   ENDING CASH ON HAND.............................. 

          (Subbad Line 10 From Line 8) .................................... 





                                                                                FEC Schoduk L (Form 3X) Rev. 0212003
                                                                                                                                                  Appendix C
SCHEDULE L-A (FEC Form 3X)
ITEMIZED RECEIPTS OF LEVlN FUNDS




       Full Name (Last, First, Middle Initial) IFull Organization




                                                                                                                            Amount of Each Receipt this Period
      city                                                                      State                   Zip Code

      Name of tmployer or Pnnclpal Place of Buslness 

                                                                                                                            Aggregate Year-to-Date 

      Dccupation                                                                                                            b





C.
      Mailing Address 

                                                                                                                            Amount of Each Receipt this Period 

      City                                                                      State                   Zip Code
                                                                                                                                                                                         -2
      Name of tmployer or Principal Place of Buslness 

                                                                                                                            Aggregate Year-to-Date 

      Occupation 





                                                                                                                            Amount of Each Receipt this Period
                                                                                State                  Zip Code
                                                                                                                                                                                          7 

      Name of trnployer or Prlnclpal Place of Buslness 

                                                                                                                            Aggregate Year-to-Date 

                                                                                                                                 w-F*m                                 u *-*
                                                                                                                                                              cm>pwys%**-*                ?x
      Dccupat~on
                                                                                                                                                                                               .B




    SUBTOTAL of Receipts This Page (optional)............................................................................
                                                                                                                     b      f B&aX*h~~,riiri~:~LL
                                                                                                                                         . * " " P " ~ 7 ~ * q * ~ p . N M p P a wx,4111*BB

                                                                                                                                                                                     i' 


I   TOTAL Thls Period (last page this line number only)...............................................................




                                                                                                                                   FEC Schedule L-A (Form 3X) Rev. 0212003
                           ' W i   '*
                                                                                                  lueuresrnqs!a l o esodtnd
                           Ad­      7

poped s!@ IueuesAnqs!a ~(38310 Iunouy                   epo3 d ! ~      WS
                                                                         I                                            &!CI
                                                                                           (Unj ul) 33JllWW03 4 0 3WVN
 .aeU(uwoo lpns u o ~sl u ~ q p l u a
                                    W!IOS 01 ee~(wwmle3~lodAm lo sse~ppapua ewau q lkrpn ueq JWO 'sesodmnd ppJewurm JOJ JO
SuwnqCpum 6uwqps 10 esadrnd e q JOJ uos~edAua Aq pesn JO PIOS eq IOU AUUI sluouaws pus slrodotl rpns u r q pqdm uo~wlwqutAw
